<html>
<title> - RESPONSE AND RECOVERY TO ENVIRONMENTAL CONCERNS FROM THE 2017 HURRICANE SEASON</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


RESPONSE AND RECOVERY TO ENVIRONMENTAL CONCERNS FROM THE 2017 HURRICANE 
                                 SEASON

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2017

                               __________

                           Serial No. 115-78
                           
                           
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                         
                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-388 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a1c6d1cee1c2d4d2d5c9c4cdd18fc2cecc8f">[email&#160;protected]</a>                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                                 7_____

                      Subcommittee on Environment

                         JOHN SHIMKUS, Illinois
                                 Chairman
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    RAUL RUIZ, California
MARSHA BLACKBURN, Tennessee          SCOTT H. PETERS, California
GREGG HARPER, Mississippi            GENE GREEN, Texas
PETE OLSON, Texas                    DIANA DeGETTE, Colorado
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
BILL FLORES, Texas                   TONY CARDENAS, California
RICHARD HUDSON, North Carolina       DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota           DORIS O. MATSUI, California
TIM WALBERG, Michigan                FRANK PALLONE, Jr., New Jersey (ex 
EARL L. ``BUDDY'' CARTER, Georgia        officio)
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9
    Prepared statement...........................................    10

                               Witnesses

Peter D. Lopez, Regional Administrator, Region 2, Environmental 
  Protection Agency..............................................    11
    Prepared statement...........................................    14
    Answers to submitted questions \1\...........................   149
Trey Glenn, Regional Administrator, Region 4, Environmental 
  Protection Agency..............................................    21
    Prepared statement...........................................    24
    Answers to submitted questions \1\
Samuel J. Coleman, Acting Regional Administrator, Region 6, 
  Environmental Protection Agency................................    31
    Prepared statement...........................................    34
    Answers to submitted questions \1\
Bryan W. Shaw, Ph.D., Chairman, Texas Commission on Environmental 
  Quality........................................................    39
    Prepared statement...........................................    42
Mike Howe, Executive Director, Texas Section, American Water 
  Works Association..............................................    81
    Prepared statement...........................................    83
Mark Lichtenstein, Chief Sustainability Officer and Chief of 
  Staff, College of Environmental Science and Forestry, State 
  University of New York.........................................    92
    Prepared statement...........................................    94
Lyvia N. Rodriguez Del Valle, Executive Director, Corporacion Del 
  Proyecto ENLACE Del Cano Martin Pena...........................   123
    Prepared statement...........................................   126
Trent Epperson, Assistant City Manager, City of Pearland, Texas..   134
    Prepared statement...........................................   137

----------
\1\ Mr. Lopez, Mr. Glenn, and Mr. Coleman jointly answered 
  submitted questions.

 
RESPONSE AND RECOVERY TO ENVIRONMENTAL CONCERNS FROM THE 2017 HURRICANE 
                                 SEASON

                              ----------                              


                       TUESDAY, NOVEMBER 14, 2017

                  House of Representatives,
                       Subcommittee on Environment,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2123, Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, McKinley, Barton, 
Blackburn, Olson, Johnson, Flores, Hudson, Walberg, Carter, 
Walden (ex officio), Tonko, Ruiz, Peters, Green, DeGette, 
Dingell, Matsui, and Pallone (ex officio).
    Staff present: Ray Baum, Staff Director; Mike Bloomquist, 
Deputy Staff Director; Allie Bury, Legislative Clerk, Energy 
and Environment; Karen Christian, General Counsel; Jerry Couri, 
Deputy Chief Counsel, Environment; Wyatt Ellertson, 
Professional Staff Member, Energy and Environment; Adam Fromm, 
Director of Outreach and Coalitions; Theresa Gambo, Human 
Resources and Office Administrator; Jordan Haverly, Policy 
Coordinator, Environment; A.T. Johnston, Senior Policy Advisor, 
Energy; Mary Martin, Chief Counsel, Energy and Environment; 
Alex Miller, Video Production Aide and Press Assistant; Tina 
Richards, Counsel, Environment; Dan Schneider, Press Secretary; 
Hamlin Wade, Special Advisor for External Affairs; Everett 
Winnick, Director of Information Technology; Andy Zach, Senior 
Professional Staff Member, Environment; Jeff Carroll, Minority 
Staff Director; Jacqueline Cohen, Minority Senior Counsel; 
Caitlin Haberman, Minority Professional Staff Member; Rick 
Kessler, Minority Senior Advisor and Staff Director, Energy and 
Environment; Jon Monger, Minority Counsel; Alexander Ratner, 
Minority Policy Analyst; Andrew Souvall, Minority Director of 
Communications, Member Services, and Outreach; Tuley Wright, 
Minority Energy and Environment Policy Advisor; C.J. Young, 
Minority Press Secretary; and Catherine Zander, Minority 
Environment Fellow.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. We will ask staff to close the back door, 
please, and ask the committee to now come to order, and I will 
recognize myself for 5 minutes for an opening statement.
    I want to thank all our witnesses for joining us today. We 
are especially grateful for those of you who have traveled 
significant distances to be with us today to share your stories 
about the hurricanes that tore through our country this fall 
and about the impact of those hurricanes on the environment.
    We know that many of you are still in the trenches of 
dealing with the response and recovery efforts, so your 
willingness to take the time to be here today does not go 
unnoticed.
    This fall, the continental United States and some United 
States territories in the Caribbean experienced severe weather 
from five hurricanes, including extensive damage due to 
landfall from four storms.
    Hurricane Harvey impacted Texas and Louisiana; Hurricane 
Irma hit Florida, Georgia, Puerto Rico, and the U.S. Virgin 
Islands; Hurricane Maria, again, hit Puerto Rico and the U.S. 
Virgin Islands; and Tropical Storm Nate impacted Louisiana and 
Mississippi.
    The Energy and Commerce Committee is conducting a series of 
hearings to look at the response and recovery efforts conducted 
during this hurricane season so we can figure out what went 
well and what we could we have done better, what we need to do 
is going--and what we need to do going forward.
    We are also focused on what Congress can do to assist the 
impacted communities as they work to get back on their feet.
    Today we are focused on the environmental impacts of these 
hurricanes and the response efforts. No two hurricanes are 
alike, and a storm's individual characteristics, like the 
speed, intensity, and amount of precipitation, play a large 
role in the extent of the storm's impact on natural resources 
and the environment.
    For example, as we will hear from several of our witnesses, 
Hurricane Harvey may have significantly impacted several 
Superfund sites in Houston because of the record rainfall and 
flooding.
    Likewise, in Puerto Rico, Hurricanes Irma and Maria 
uncovered the intensified issues associated with aging and 
inefficient energy infrastructure, contaminated sites that are 
rapidly multiplying, landfills that are already overflowing, 
and possibly the most contaminated drinking water supply in the 
United States.
    Residents across the island are still without power and 
reliable source of--and a reliable source of drinking water. 
Many are drinking potentially contaminated water because water 
purification systems have largely failed in the wake of the 
storm, and in the municipality of Dorado citizens resorted to 
drinking well water from Superfund sites.
    Today, we will look at the response efforts by the 
Environmental Protection Agency and the States for the impacted 
communities. We will consider environmental issues in the 
hurricane-impacted communities such as the availability of 
clean drinking water, the potential for air releases, the 
impact on Superfund sites and solid and hazardous waste 
disposal facilities, and risk management and emergency response 
plans.
    We hope to hear from the affected EPA regional 
administrators about their efforts, what they accomplished, 
what remains to be done, and what can be done better in the 
future and how Congress can assist.
    We will also hear from several private sector witnesses 
from academia as well as people who are serving in the boots-
on-the ground roles in Texas and Puerto Rico, and people who 
can weigh in on what needs to be done regarding the drinking 
water systems in the affected communities.
    Again, I thank all our witnesses for being here. I hope the 
discussions will start today about the response and recovery 
efforts, the National Response Framework, and about whether 
statutory or other changes need to be made.
    We will adjust the beginning as we continue to oversee and 
assist the Federal and State governments as they carry out the 
response and recovery efforts for the communities impacted by 
the hurricanes.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    I want to thank all our witnesses for joining us today. We 
are especially grateful for those of you who traveled 
significant distances to be with us today to share your stories 
about the hurricanes that tore through our country this fall 
and about the impact of those hurricanes on the environment. We 
know that many of you are still in the trenches on dealing with 
the response and recovery efforts, so your willingness to take 
the time to be here today does not go unnoticed.
    This fall, the continental United States and some United 
States territories in the Caribbean experienced severe weather 
from five hurricanes, including extensive damage due to 
landfall from four storms. Hurricane Harvey impacted Texas and 
Louisiana; Hurricane Irma hit Florida, Georgia, Puerto Rico, 
and the U.S. Virgin Islands; Hurricane Maria again hit Puerto 
Rico and the U.S. Virgin Islands; and Tropical Storm Nate 
impacted Louisiana and Mississippi.
    The Energy and Commerce Committee is conducting a series of 
hearings to look at the response and recovery efforts conducted 
during this hurricane season so we can figure out what went 
well, what we could we have done better, what we need to do 
going forward. We are also focused on what Congress can do to 
assist the impacted communities as they work to get back on 
their feet.
    Today we are focused on the environmental impacts of these 
hurricanes and the response efforts. No two hurricanes are 
alike and the storm's individual characteristics--like the 
speed, intensity, and amount of precipitation--play a large 
role in the extent of the storm's impact on natural resources 
and the environment. For example, as we will hear from several 
of our witnesses, Hurricane Harvey may have significantly 
impacted several superfund sites in Houston because of the 
record rainfall and flooding.
    Likewise, in Puerto Rico, Hurricanes Irma and Maria 
uncovered and intensified issues associated with aging and 
inefficient energy infrastructure; contaminated sites that are 
rapidly multiplying; landfills that are already overflowing; 
and possibly the most contaminated drinking water supply in the 
United States. Residents across the island are still without 
power and a reliable source of drinking water. Many are 
drinking potentially contaminated water because water 
purification systems have largely failed in the wake of the 
storm and in the municipality of Dorado citizens resorted to 
drinking well water from Superfund sites.
    Today, we will look at the response efforts by the 
Environmental Protection Agency and the States for the impacted 
communities. We will consider environmental issues in the 
hurricane-impacted communities such as the availability of 
clean drinking water, the potential for air releases, the 
impact on superfund sites and solid and hazardous waste 
disposal facilities, and risk management and emergency response 
plans. We hope to hear from the affected EPA regional 
administrators about their efforts--what they accomplished, 
what remains to be done, and what can be done better in the 
future and how Congress can assist.
    We will also hear from several private-sector witnesses 
from academia, as well as people who are serving in ``boots-on-
the ground'' roles in Texas and Puerto Rico, and people who can 
weigh in on what needs to be done regarding the drinking water 
systems in the affected communities.
    Again, I thank all our witnesses for being here. I hope 
that the discussions we start today--about the response and 
recovery efforts, the National Response Framework, and about 
whether statutory or other changes need to be made--will be 
just the beginning as we continue to oversee and assist the 
Federal and State governments as they carry on the response and 
recovery efforts for the communities impacted by the 
hurricanes.

    Mr. Shimkus. And before I yield back my time, I am going to 
yield 30 seconds to Marsha Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    I want to welcome our witnesses. So pleased that everyone 
is here. There are so many different aspects to preventing, 
planning for, responding to the natural disasters, as the 
chairman has said, and these events are taking a toll on our 
communities, also on our Nation.
    And so much is involved in it--today, the environmental 
aspects, but also looking at the health aspects, and we know 
that they all have to work hand in hand.
    I have got a piece of legislation, H.R. 1876, the Good 
Samaritan Health Professionals Act, that deals with that one 
component of making certain that people are cared for 
appropriately.
    But we thank you for being here. We want to do what is 
right, we want to be helpful to the process, and we want to 
make certain that citizens are cared for in these situations.
    And I yield back.
    Mr. Shimkus. Gentlelady yields back her time to me, and 
before I turn to the ranking member I also want to mention that 
we will have sitting in with us Jenniffer Gonzalez, who is the 
resident commissioner of Puerto Rico. She's going to be sitting 
at the dais, but per committee rule she can't ask questions, 
she can't make an opening statement. But when she comes, I will 
make sure I recognize her.
    With that, I yield back my time and yield 5 minutes to the 
ranking member, Mr. Tonko, for 5 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair.
    It is important that we are holding this hearing and I 
thank you for doing that.
    I was sad to hear the news that our friend, the former 
ranking member of this subcommittee and the current ranking 
member of our Health Subcommittee, Gene Green, will be retiring 
at the end of the 115th Congress.
    I know Gene was here a few moments ago. But I want to thank 
him for his friendship and know that he will--and I certainly 
know that he will be fighting for disaster assistance for 
Houstonians for the next 13 months. So we wish him well.
    And I thank all of our witnesses for being here. It is 
great to have EPA witnesses join us on this very important 
topic. I hope Administrator Pruitt will appear before the 
subcommittee at some point in the near future as well.
    I want to especially take this opportunity to welcome 
Administrator Peter Lopez. Mr. Lopez and I have worked together 
for many years. His former Assembly district overlapped a 
portion of New York's 20th Congressional District.
    Our constituents were hit hard by Hurricane Irene and 
Tropical Storm Lee, and we well know that disasters don't 
discriminate.
    Peter, you are an outstanding public servant, and I wish 
you well in your new role and it is great to have you at the 
witness table today.
    Mother Nature does not discriminate. She doesn't care if 
you are a Republican or a Democrat, and our Government must be 
ready to respond to help everyone get back on their feet.
    So I hope you can take the lessons learned over the years 
both in the response and recovery efforts and apply them to 
assist our fellow Americans in need now.
    We know the recovery effort will be long. But, sadly, in 
Puerto Rico and the United States Virgin Islands the response 
effort is still underway.
    Far too many Americans continue to live without electricity 
or safe drinking water and that is simply unacceptable.
    On today's panels we will hear about the work done in the 
aftermath of Hurricanes Harvey, Irma, and Maria, to address 
environmental concerns.
    EPA plays an important role in disaster response by 
assessing and restoring water systems and Superfund sites, 
responding to chemical and oil spills, and monitoring air 
quality.
    I know there will be a wide variety of issues addressed 
today including Superfund, chemical safety, air emissions, and 
debris management.
    I am particularly concerned about water systems, which we 
know are often aging and in disrepair, even without the stress 
of a disaster.
    There are legitimate questions as to whether State 
revolving fund loans are the most appropriate vehicle to get 
communities back on their feet following such devastation.
    In Texas and in Florida, flood waters were contaminated 
with bacteria and toxins. Water included high concentrations of 
E. coli as well as elevated levels of lead, arsenic, and other 
heavy metals.
    In Puerto Rico, we have heard stories of people drinking 
from and bathing in contaminated rivers. There have been a 
number of reported cases of leptospirosis.
    The media even reported people using a well located--a well 
located on Superfund site, which only after the fact was 
determined to meet Federal drinking water standards.
    These examples show the direness of the circumstances that 
Americans faced following these disasters--no power, no clean 
water, and driven to acts of desperation.
    These hurricanes should serve as a reminder that EPA is one 
of our Nation's most essential public health agencies. EPA has 
important work to do as recovery for these disasters begins.
    But the drastic proposed reduction to EPA's budget, 
personnel, and environmental safeguards will make it harder to 
fulfil its mission including supporting disaster response and 
disaster recovery.
    Preserving a strong EPA is critical to the health of 
Americans. These storms have made that clear. A robust EPA will 
make communities more resilient.
    For example, today we will hear about the risks posed to 
Superfund sites by disasters and the work EPA has done to 
assess these sites both before and after storms.
    But the best and perhaps only way to mitigate the risks to 
these sites is through actual remediation. Reducing funding to 
the Superfund program will not make cleanups happen any quicker 
and will not make sites less vulnerable to storms.
    I would also be remiss if I did not mention climate change 
and the role EPA should be playing in addressing that threat. 
If we continue to ignore climate change, increasingly severe 
disasters will become the new normal and we can expect many 
more hearings like this one in the future.
    I hope we can work together to ensure EPA has the resources 
necessary to support disaster response efforts and make our 
communities more resilient to disasters before they occur.
    I look forward to hearing from the witnesses today and 
yield back and, again, thank you, Mr. Chairman.
    Mr. Shimkus. Gentleman yields back the time.
    The Chair now recognizes the chairman of the full 
committee, Mr. Walden, for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I thank the gentleman.
    Today marks the third hearing our committee has held to 
examine the response and recovery efforts for the hurricanes 
that ravaged our communities along the Gulf Coast and our 
island territories in the Caribbean.
    And I would note for the committee in response to our 
concern about the situations especially in the island 
territories we will be having a congressional delegation--a 
pretty high level limited seating capacity trip--to Puerto Rico 
and the Virgin Islands coming up most likely early next month 
to have--get a firsthand look at the situation. You will get 
more information as we go along.
    Hurricane response and recovery deals with human tragedy. 
These storms didn't just damage property and displace 
residents. They delayed dreams and fundamentally altered the 
lives and fortunes of millions of Americans in ways big and 
small.
    While we cannot undo the damage of these storms we can work 
to ensure the Federal Government is diligently doing its job to 
aid recovery and not making it harder to get that job done.
    Public health risks typically associated with natural 
disasters including drinking water contamination and the 
leeching of hazardous waste are varied and include heightened 
risk of infectious disease, as you all know.
    These risks can be particularly dangerous for vulnerable 
populations such as individuals with immuno suppressed and the 
elderly and infants, clearly.
    Our job this morning is to better understand who in the 
context of environmental concerns that bear on public policy is 
engaging in the tough work to help speed recovery, what they 
are doing or not doing to make hurricane victims lives better 
and the challenges they face, when will something resembling 
normalcy return and where are the resources coming from to make 
recovery a reality and what private efforts can be leveraged. 
So it is all the who, what, when, where, and why and how.
    We also need to determine whether the Federal presence is 
helping or hurting that recovery and, if so, how do we--how do 
we change things that need to be changed.
    Some of the areas we hope to cover today will have to go 
unaddressed for now. We had hoped to have a Puerto Rico solid 
waste official testify via video conference about the situation 
on the ground there.
    Last week, she confirmed she would testify but then, 
unfortunately, power went down on the island and our ability to 
communicate with her was lost.
    We also hoped to hear from the Federal Emergency Management 
Agency about its work leading response efforts and improving 
funding for recovery activities. But they were unable to find 
someone who could testify. Pretty remarkable.
    We will continue working with FEMA to ensure these 
questions are answered so we can feel confident in both 
statutory authority and administrative practice, support 
rational decision making, and promote the needs on the ground.
    That said, I want to welcome our witnesses today. Thank you 
for being here. Some of you have come great distances but each 
of you has important lessons for our committee to learn and we 
appreciate your participation.
    I am confident that in the midst of all this bad news you 
will provide us some stories of dedication, innovation, 
gumption, acts of personal sacrifice, kindness, and courage.
    These should inspire us to be equally fearless and 
committed in our work ahead. And in this committee and its 
broad jurisdiction we do roll up our sleeves and search for 
solutions to the various challenges that present themselves 
after a major disaster and we want to make sure the agencies 
under our jurisdiction are well prepared, responding 
appropriately, and that lives are improving as a result.
    If not, we want to know about it so that we can fix it. I 
expect that this will be an excellent hearing for us to 
identify vulnerabilities and assess what is needed to better 
prepare and respond to this and future storms and disasters.
    So thank you for being here. We look forward to working 
with you. I know the former chairman of the committee, the vice 
chairman, has a special announcement he'd like to make now 
about some of our folks in the audience who are with us today.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Today marks the third hearing our committee has held to 
examine the response and recovery efforts for the hurricanes 
that ravaged our communities along the Gulf Coast and our 
island territories in the Caribbean.
    Hurricane response and recovery deals with human tragedy. 
These storms didn't just damage property and displace 
residents, they delayed dreams and fundamentally altered the 
lives and fortunes of millions of Americans in ways both big 
and small. While we cannot undo the damage of these storms, we 
can work to ensure that the Federal Government is diligently 
working to aid recovery and not making it harder to get the job 
done.
    Public health risks typically associated with natural 
disasters, including drinking water contamination and the 
leaching of hazardous waste, are varied and include heightened 
risk of infectious disease. These risks can be particularly 
dangerous for vulnerable populations such as infants, 
individuals who may be immunosuppressed, and the elderly.
    Our job this morning is to better understand who, in the 
context of environmental concerns that bear on public health, 
is engaging in the tough work to help speed recovery, what they 
are doing or not doing to make hurricane victims' lives better 
and the challenges they face, when will something resembling 
``normalcy'' return, and where are the resources coming from to 
make recovery a reality and what private efforts can be 
leveraged. We also need to determine whether the Federal 
presence is helping or hurting recovery and, if so, get input 
on how it needs to change.
    Some of the areas we hoped to cover today will have to go 
unaddressed for now. We had hoped to have a Puerto Rico solid 
waste official testify via video conference about the situation 
on the ground there. Last week, she confirmed she would 
testify, but then power went down on the island and our ability 
to communicate with her was lost.
    We also hoped to hear from the Federal Emergency Management 
Agency about its work leading response efforts and approving 
funding for recovery activities, but they were unable to find 
someone who could testify. We will continue working with FEMA 
to ensure these questions are answered so we can feel confident 
both statutory authority and administrative practice support 
rational decision making and promote the needs on the ground.
    That said, I want to welcome our witnesses here today. Some 
of you have come from great distances, but each of you has 
important lessons that you will share with us--and we 
appreciate it.
    I am confident that within the midst of all the bad news, 
you will provide us stories of dedication, innovation, 
gumption, and acts of personal sacrifice and kindnesses. These 
should inspire us to be equally fearless and committed in the 
work ahead.
    In this committee and its broad jurisdiction, we roll up 
our sleeves and search for solutions to the various challenges 
that present themselves after a major disaster. We want to make 
sure that the agencies under our jurisdiction are well 
prepared, responding appropriately, and lives are improving. If 
not, we want to know about it so we can fix it. I expect that 
this will be an excellent hearing for us to identify 
vulnerabilities and assess what is needed to better prepare and 
respond to this and future storms and disasters.

    Mr. Walden. So with that, Mr. Chairman, I would yield to 
the gentleman from Texas the remainder of my time, Mr. Barton.
    Mr. Barton. Well, I thank you, Chairman Walden. Thank you, 
Chairman Shimkus and Mr. Tonko, for holding this hearing.
    I had the privilege way back when--have been a White House 
fellow under President Reagan back in 1981 and part of 1982 and 
today I have the current class of White House fellows on their 
visit to the Hill.
    They are in the back lefthand corner. They are 14 of the 
best and brightest young Americans. They work for Cabinet 
secretaries or agency heads. They are full of vim and vinegar, 
and I told them they are in the best committee in the House. So 
we want to welcome our White House fellows and wish them the 
very best in the years ahead.
    [Applause.]
    I also want to welcome our two Texas witnesses, Dr. Shaw 
and Mr. Sam Coleman. Mr. Coleman is the acting regional 
administrator, Region 6, at EPA in Dallas, and Dr. Brian Shaw 
is head of the TCEQ down in Austin, Texas. They are both good 
men and good friends of mine. We welcome them to the committee.
    With that, I yield back, Mr. Chairman.
    Mr. Shimkus. Gentleman yields back his time.
    The Chair now recognizes the ranking member of the full 
committee, Mr. Pallone.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Environmental impacts from this season's hurricanes have 
wreaked havoc and continue to threaten public health in serious 
and unacceptable ways.
    The Federal Government's response to these hurricanes has 
been disorganized and in the instance of both Puerto Rico and 
the Virgin Islands it has been too little and too late and we 
must step up our efforts.
    Two weeks ago, the Subcommittee on Energy held a hearing 
focused on energy infrastructure recovery efforts, which is a 
central and ongoing concern, and last week we saw a major 
setback in the recovery of the electric grid in Puerto Rico 
when a repair transmission line failed.
    And today, more than two months after Hurricane Maria, more 
than half of the island is still without power and that is 
adversely affecting everything from health care to access to 
safe drinking water.
    This lack of electricity puts lives at risk and must be 
addressed. Unfortunately, at this point, it does not appear 
that any agency within the Federal Government is standing up 
and taking full control of this effort.
    The Army Corps and FEMA say the other is in charge and that 
is unacceptable. Someone needs to take the lead now.
    This is also far from the only challenge facing communities 
in Texas, Florida, Puerto Rico, and the Virgin Islands.
    First and foremost is the lack of safe drinking water. This 
has been a problem in all of the areas affected by these 
hurricanes and it continues to threaten lives.
    The severity of these issues show the weaknesses in our 
drinking water infrastructure and how important it is for our 
drinking water systems to be more resilient to extreme weather 
and climate change.
    Drinking water infrastructure has been a priority for this 
subcommittee this year and an issue that we have worked on 
together, and several of the provisions included in the 
committee's bipartisan drinking water bill could have helped 
water systems prepare for these storms.
    But I think we are learning that we need to do even more 
and that we need to provide more resources to these affected 
areas, and I hope that we can continue to work together in a 
bipartisan manner to address the concerns we hear about today.
    Superfund sites also pose serious risks when natural 
disasters strike. Several of these dangerous sites were damaged 
during this hurricane season and we are still struggling to 
understand the health impacts of that damage.
    An extreme--as extreme weather events become more frequent, 
it is even more important that we clean up Superfund sites 
quickly and thoroughly.
    With greater funding for Superfund cleanups we might have 
avoided some of the damage we have seen and, again, I hope my 
Republican colleagues will join me in working to address this 
issue as well.
    And these hurricanes have also led to significant air 
pollution with real public health impacts. In Texas, we saw an 
accidental release of benzene at the Valero refinery and a 
dangerous series of chemical fires at the Arkema plant.
    In Puerto Rico and the Virgin Islands, we continue to see 
dangerously high air emissions from diesel generators which 
could worsen dramatically as debris management efforts being in 
earnest.
    And if we can't get the power turned back on soon, if we 
can't get safe drinking water out to our citizens, more 
Americans are going to die. This is a humanitarian crisis and 
we must do everything we can to fix it.
    As Congress prepares the next emergency spending bill, we 
need to consider all these environmental concerns and do what 
is necessary to protect human health and the public welfare.
    We can and should be doing more to increase access to safe 
drinking water, to secure and remediate Superfund sites, and to 
limit air pollution.
    So I just want to thank the witnesses who traveled here 
today from Texas, Puerto Rico, from the Virgin Islands, and 
from Georgia, and, Mr. Chairman, I look forward to hearing from 
you. I don't know if any of our Democratic members want the 
time.
    If not, I will yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Mr. Chairman. Environmental impacts from this 
season's hurricanes have wreaked havoc and continue to threaten 
public health in serious and unacceptable ways. The Federal 
Government's response to these hurricanes has been disorganized 
and in the instance of both Puerto Rico and the Virgin Islands, 
it has been, too little, too late. We must step up our efforts.
    Two weeks ago, the Subcommittee on Energy held a hearing 
focused on energy infrastructure recovery efforts, which is a 
central and ongoing concern. Last week we saw a major setback 
in the recovery of the electric grid in Puerto Rico, when a 
repaired transmission line failed. And today--more than two 
months since Hurricane Maria--more than half of the island is 
still without power. That is adversely affecting everything 
from health care to access to safe drinking water. This lack of 
electricity puts lives at risk, and must be addressed. 
Unfortunately, at this point it does not appear that any agency 
within the Federal Government is standing up and taking full 
control of this effort. The Army Corps and FEMA say the other 
is in charge. That's unacceptable--someone needs to take the 
lead now.
    This is also far from the only challenge facing communities 
in Texas, Florida, Puerto Rico and the Virgin Islands. First 
and foremost is the lack of safe drinking water. This has been 
a problem in all of the areas affected by these hurricanes, and 
it continues to threaten lives. The severity of these issues 
show the weaknesses in our drinking water infrastructure and 
how important it is for our drinking water systems to be more 
resilient to extreme weather and climate change.
    Drinking water infrastructure has been a priority for this 
subcommittee this year, and an issue we have worked on 
together. Several of the provisions included in the committee's 
bipartisan drinking water bill could have helped water systems 
prepare for these storms. But I think we are learning that we 
need to do even more, and that we need to provide more 
resources to these affected areas. I hope we can continue to 
work together in a bipartisan manner to address the concerns we 
hear about today.
    Superfund sites also pose serious risks when natural 
disasters strike. Several of these dangerous sites were damaged 
during this hurricane season, and we are still struggling to 
understand the health impacts of that damage. As extreme 
weather events become more frequent, it is even more important 
that we clean up Superfund sites quickly and thoroughly. With 
greater funding for Superfund cleanups, we might have avoided 
some of the damage we have seen. Again, I hope my Republican 
colleagues will join me in working to address this issue.
    These hurricanes have also led to significant air pollution 
with real public health impacts. In Texas, we saw an accidental 
release of benzene at the Valero refinery and a dangerous 
series of chemical fires at the Arkema plant. In Puerto Rico 
and the Virgin Islands, we continue to see dangerously high air 
emissions from diesel generators, which could worsen 
dramatically as debris management efforts begin in earnest.
    If we can't get the power turned back on soon, if we can't 
get safe drinking water out to our citizens, more Americans are 
going to die. This is a humanitarian crisis and we must do 
everything we can to fix it.
    As Congress prepares the next emergency spending bill, we 
need to consider all of these environmental concerns and do 
what is necessary to protect human health and the public 
welfare. We can and should be doing more to increase access to 
safe drinking water, to secure and remediate Superfund sites, 
and to limit air pollution.
    I want to thank the witnesses who have traveled here today 
from Texas, from Puerto Rico, from the Virgin Islands, and from 
Georgia. I look forward to hearing from you.

    Mr. Shimkus. Gentleman yields back his time.
    We want to thank all our witnesses for being here today and 
taking the time to testify before the subcommittee.
    Today's witnesses will have an opportunity to give an 
opening statement followed by a round of questions from the 
Members. Of course, your full statements are going to be 
submitted for the record.
    Our first witness panel for today's hearing will include 
Mr. Peter Lopez, regional administrator, Region 2, 
Environmental Protection Agency; Mr. Trey Glenn, regional 
administrator, Region 4, of the Environmental Protection 
Agency; Mr. Sam Coleman, acting regional administrator, Region 
6, Environmental Protection Agency; and Dr. Brian Shaw, 
chairman of the Texas Department of Environmental Quality.
    And with that, we will turn first to Mr. Lopez. You have 5 
minutes, sir.
    Welcome.

STATEMENTS OF PETER D. LOPEZ, REGIONAL ADMINISTRATOR, REGION 2, 
     ENVIRONMENTAL PROTECTION AGENCY; TREY GLENN, REGIONAL 
   ADMINISTRATOR, REGION 4, ENVIRONMENTAL PROTECTION AGENCY; 
  SAMUEL J. COLEMAN, ACTING REGIONAL ADMINISTRATOR, REGION 6, 
  ENVIRONMENTAL PROTECTION AGENCY; AND BRYAN W. SHAW, PH.D., 
      CHAIRMAN, TEXAS COMMISSION ON ENVIRONMENTAL QUALITY

                  STATEMENT OF PETER D. LOPEZ

    Mr. Lopez. Thank you, Chairman Shimkus and Chairman Walden, 
Ranking Members Tonko and Pallone, and fellow Energy and 
Commerce Committee members.
    I am Pete Lopez. I am the regional administrator for Region 
2, which includes all of New York, New Jersey, the Virgin 
Islands, and eight federally recognized Indian Nations.
    It is a privilege to join you today for this important 
conversation, and my testimony today, please understand, is a 
snapshot of what's happening as a result of Hurricanes Irma and 
Maria.
    Please understand that we are very much in an emergency 
response mode and that the testimony we offer today is subject 
to change on a daily basis. So we are doing our best here.
    Just to preface, in my years as a member of the State 
legislature, I was intensely involved in a response very 
similar to what's happened in the Caribbean.
    So in upstate New York in 2011, we were ravaged by 
Hurricane Irene and Tropical Storm Lee. Mr. Tonko and I were 
partners there working on this issue.
    In this instance, my parents were homeless. My family was 
homeless. We had eight feet of water in my village. A similar 
situation with infrastructure, communications, power grids. The 
socioeconomic conditions very much the same.
    If you understand New York geography, northern Appalachia, 
what we found--and this is a critical issue for the committee 
and for the administration--is that the more disadvantaged the 
community, the more painful and slow the recovery.
    So I can't understate that message, and I just wanted to 
bring it to the committee's conscious thought.
    Recently, I had a chance to travel to Puerto Rico, and it 
was with my colleague, Deputy McCabe, who is with me today, and 
I was struck by the incredible destruction, and I have to tell 
you that the sights, the sounds, the smells were all too 
familiar.
    And as with Irene and Lee, I also have family on the 
islands in the Arecibo and Camuy area. The Lopez family and 
Corderos are there, as well, and we are very concerned about 
their safety.
    The focus of the trip was not just to be on the ground but 
to connect. We met with leaders. We met with leaders of the 
territories and the Commonwealth, local officials, and our main 
goal was to connect with them, to identify problems and issues 
and really help them problem solve.
    So we are very committed, and I have to say the experience 
was both sobering but also galvanizing. I found that my 
colleagues on the ground are very passionate about the work 
they are doing and treat individuals as subjects, not objects. 
We are concerned about individual families, communities, and 
the integrity of the entire population.
    As was noted by some of the introductory remarks, a major 
challenge remains with the power grid, and here, as you can 
imagine, virtually everything relies on electricity.
    So whether it is pollution controls at Superfund sites, 
drinking water and wastewater system operation, all of those 
things are challenged.
    Our response has been working with FEMA and Army Corps to 
place strategically placed generators at key locations. The 
challenge, of course, is that it provides an alternate power 
source, but reliability in the long term is at risk here.
    So they require fuel, and even the generators themselves 
are subject to mechanical failure. So, as we try to run around 
the island, we are challenged with the electricity issue.
    I just want to say in their defense--for both FEMA and Army 
Corps--their job is unprecedented, and I don't want to draw too 
much of a parallel to Europe after World War II, where we talk 
about the Marshall Plan and off script a little, but the 
challenges on the island are unique.
    So, in defense of our colleagues with FEMA and Army Corps, 
their job is extraordinary.
    EPA has about 325 employees and contractors on the ground 
in Puerto Rico and in the Virgin Islands. We hope to have that 
number increased to about 400 in December.
    In your testimony, you'll see greater detail on the status 
of drinking water facilities, hazardous waste facilities, 
wastewater treatment, Superfund sites, hazardous debris, 
comingled debris, and sunken vessels. You'll see all that in 
front of you in your testimony.
    Just as a quick note, we've made great progress. We still 
face a number of challenges. Outside of the power, we have been 
dealing with waste--medical waste that has been building up due 
to logistical limitations.
    Many roads are still impassable and, as you know, weather 
conditions have further compromised with mudslides and 
flooding. That includes area flooding, chronic flooding, as 
well as destruction to other property.
    So accessibility on the island is an ongoing challenge. 
Humanitarian aid: We have stepped out of our comfort zone, and 
where we are the first responders, we are bringing additional 
humanitarian aid with our staff as we go into the mountainous 
terrain.
    So looking to the future, quickly, we know there are unique 
challenges. The issue of backup power: We heard reference to 
what do we do for the future. Having backup power and supplies 
on the island is critical.
    Positioning those supplies in key areas, particularly with 
storms advancing, would be very helpful. And, again, we know 
there are opportunities for improvement always, but we welcome 
the committee's engagement and thank you for this opportunity 
to be here with you.
    Thank you so much, Chairman.
    [The prepared statement of Mr. Lopez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Gentleman's time has expired.
    And let me just for the record ask the regional 
administrators to state where the headquarters is and remind 
our colleagues what States they represent. We did this in the 
Energy Sub, and I think that is just helpful to keep that all 
in perspective.
    So with that--so Mr. Lopez, what are the States and, 
obviously, protectorates that you cover?
    Mr. Lopez. Yes, Chairman.
    So New Jersey, New York, Puerto Rico, Virgin Islands, and 
eight recognized Indian Nations--Tribes--and we are 
headquartered in Broadway, New York City--290 Broadway.
    Mr. Shimkus. So let me now turn to Mr. Glenn, Region 4 
administrator.

                    STATEMENT OF TREY GLENN

    Mr. Glenn. Good morning. Mr. Chairman and esteemed members 
of this committee, I am Trey Glenn, regional administrator for 
EPA Region 4, which comprises eight southeastern States.
    That is Alabama, Florida, Georgia, Mississippi, Tennessee, 
North Carolina, South Carolina, and Kentucky, and we also have 
six federally recognized Tribes.
    Thank you for the opportunity to appear before you today to 
discuss the impacts of Hurricane Irma and EPA's response and 
recovery efforts and to continue the productive discussion that 
we had last month with the subcommittee.
    I have been on the job a little over two months now and I 
can honestly say that I am in awe of the caliber and expertise 
and dedication of the regional staff.
    These environmental professionals work each day to meet 
EPA's mission of protecting human health and the environment 
and this commitment was demonstrated consistently throughout 
the EPA's response to the devastating hurricanes we experienced 
this past season.
    The 2017 hurricane season was indeed unprecedented in the 
number and intensity of major storms that impacted the United 
States and the U.S. territories. The damage from these 
hurricanes is still being assessed. The recovery will continue 
for the foreseeable future.
    EPA Region 4 is fully engaged in a number of response and 
recovery activities and we are working in close coordination 
with our Federal, State, local, and Tribal partners as well as 
businesses and local communities.
    The core of our emergency response program in Region 4 
consists of 28 on-the-scene coordinators and 57 additional 
staff within a response support corps.
    Prior to landfall of these storms, I personally reached out 
to the environmental directors of the four States that were in 
the potential path of this storm to inform them of Region 4's 
ability to assist if needed.
    We also reached out to our Tribal partners that might be 
impacted by the storm, and Florida was the only State that 
requested EPA assistance relative to Hurricane Irma.
    We deployed our Region 4 on-scene coordinator to provide 
direct coordination and planning support to the State. We also 
provided a liaison to the FEMA regional response coordination 
center and deployed EPA regional senior leaders to south 
Florida and myself to Tallahassee.
    We worked closely with EPA headquarters to issue fuel 
waivers and no-action assurances to assist in not only the 
preparation but also the response activities for these great 
storms.
    We positioned 12 field hazard assessment teams for 
deployment when and where needed. These teams were deployed at 
Florida's request to provide oil and hazardous substance 
response support. We further provided support to the State for 
orphan container assessment and recovery, vessel pollution 
response and mitigation, and debris management technical 
support.
    Region 4 also assisted with water and wastewater system 
technical support. We coordinated with the State to monitor the 
status of more than 1,600 community drinking water systems and 
over 2,000 wastewater systems.
    Concurrently, Florida also requested assistance in 
contacting small noncommunity drinking water systems such as 
schools and restaurants and the water division completed over 
1,200 call-down assessments of those facilities.
    Our hazardous assessment team performed field assessments 
at more than 200 chemical and oil storage facilities identified 
as priorities.
    We conducted reconnaissance for pollution incidents and 
orphan containers and there were no significant storm-related 
hazardous substance or oil pollution incidents in Region 4.
    We also assisted with orphan container and vessel recovery 
in the Florida Keys and deployed personnel to provide support 
to the State and assessment of disaster debris management 
sites.
    Our operation in the Florida Keys continues as we speak. We 
have collected more than 700 orphan containers that are stored 
in a secure staging area for waste characterization and 
recycling or disposal.
    Our EPA team has recovered oil and hazardous materials for 
more than 65 sunken or grounded vessels and moved these craft 
to land-based staging areas where they were transferred to the 
custody of the Florida Fish & Wildlife Commission.
    Prior to landfall, we assessed vulnerabilities at all 
Superfund sites in Florida. We also deployed six teams to 
conduct boots-on-the-ground assessments of all national 
priority list sites and as a further measure we also deployed 
teams to assess these NPL sites in Alabama, Georgia, and South 
Carolina, and all we found is that sites experienced very 
little impact from Hurricane Irma.
    Postlandfall, we worked with our State partners to 
ascertain the status of oil storage facilities required to 
maintain facility response plans as well as chemical facilities 
required to maintain risk management plans.
    Overall, there were very minimal reports of oil and 
hazardous substance spills that could be attributed to the 
storm and only one of the RMP facilities contacted reported a 
hazardous substance release, the source of which was very 
quickly mitigated.
    Moving forward, we continue to meet mission assignments 
under the response phase and have initiated recovery with FEMA 
and other Federal partners under the national disaster recovery 
framework, and under this framework EPA supports Federal 
partners primarily on community planning and capacity building, 
infrastructure systems and recovery and natural and cultural 
resources.
    We are excited to have the opportunity to work with our 
Federal, State, Tribal, and local partners on this very 
innovative initiative.
    Again, I thank you for the opportunity to be here and share 
with you what I consider to be a great example of cooperative 
federalism to assure and restore public safety and recovery 
from disaster.
    I look forward to answering your questions that you have.
    [The prepared statement of Mr. Glenn follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes Mr. Sam Coleman, acting regional 
administrator of Region 6.
    Sir, you are recognized.

                 STATEMENT OF SAMUEL J. COLEMAN

    Mr. Coleman. Good morning, Mr. Chairman and fellow 
committee members. I am Sam Coleman, acting regional 
administrator for EPA Region 6, which covers Texas, New Mexico, 
Oklahoma, Arkansas, Louisiana, and their 66 federally 
recognized Tribes. We are headquartered in Dallas, Texas, in 
downtown.
    Thank you for the privilege of joining you here today for 
this very important conversation. I am here to speak directly 
about EPA's response to the devastating impacts of Hurricane 
Harvey in Region 6 and our associated response activities.
    As we have seen in the past three months, every disaster 
presents unique challenges. Hurricane Harvey hit Corpus Christi 
as a category four hurricane, then lingered over the Texas Gulf 
Coast, dropping more than 50 inches of rain in Harris and the 
surrounding counties, and this impacted over 7 million people.
    EPA worked with Texas and local officials to assess more 
than 2,200 drinking water systems and more the 1,700 wastewater 
systems.
    We retrieved over 950 loose containers and, according to 
FEMA, we worked with the State to make sure that over 20 
million cubic yards so far of debris has been properly disposed 
of.
    At one point, the Texas Commissioner of Environmental 
Quality had over 500 people working on the response and EPA had 
over 250 people assisting the State in those response 
activities.
    One of the most noteworthy aspects of the response to 
Hurricane Harvey was the positive and collaborative 
relationship between EPA and the State of Texas.
    Because we worked very closely with the State agencies and 
the Governor's office, our collective strength of our efforts 
were greater than the sum.
    By augmenting State resources where needed and providing 
some specialized monitoring capabilities, together we were able 
to address many challenges prevented by Hurricane Harvey in a 
timely manner.
    After my 29 years of working at EPA and experiencing events 
following Hurricane Katrina and the Deepwater Horizon oil 
spill, I have learned a few key lessons regarding the response 
activities to assure success.
    I am going to go over a few of those. First is exercises--
our Federal agency's plan for such catastrophic events by 
conducting exercises to prepare. It is very apparent that these 
practices lead us to discover our weaknesses and to have time 
to correct those efficiencies before the real emergency occurs.
    It is difficult to prepare for such an event as devastating 
as Hurricane Harvey. However, the State of Texas was as well 
prepared as I've seen and integrations of our organizations was 
exceptional.
    Second is prior coordination. Because EPA has open 
communication and a longstanding cooperative relationship with 
our State counterparts and other emergency response agencies, 
it clears the path for success that benefits the citizens that 
are impacted by a disaster.
    When a storm is imminent, EPA begins the coordination 
efforts before landfall. As soon as the storm passes, we have 
teams that are standing by to begin the assessment of drinking 
water and wastewater systems to begin evaluating the 
environmental integrity of impacted businesses, to begin 
investigating citizen complaints, and to respond to any 
reported spills or other damaged areas as well as sharing key 
information with the public.
    Next is the experienced staff. An effective response 
infrastructure includes experienced first responders who are 
able to address unforeseen circumstances both swiftly and 
effectively.
    Staff development during the preplanning time is of grave 
importance and should not be underestimated. Experienced 
responders are the first boots on the ground and they provide 
the most efficient assistance to communities.
    And then, finally, is having the right equipment. EPA 
employed assets during Hurricane Harvey response to assist the 
responders that were not available elsewhere. EPA often 
responds to reports of environmental impacts from air emissions 
or from other plumes that may be dangerous to a community.
    In response to these complaints and odors and fumes during 
Hurricane Harvey, EPA deployed a TAGA bus. TAGA stands for the 
trace atmospheric gas analyzer.
    This is a mobile pollution detection vehicle that is able 
to provide air quality results quickly by collecting constant 
real-time data of outdoor air quality.
    The TAGA bus monitored ambient air in the vicinity of 
approximately 25 facilities and adjacent neighborhoods and 
during that time they covered over 640 miles going back and 
forth in those communities.
    The results of this we were able to detect actionable 
emissions to work--then to work with those affected facilities 
and to work with the State to make sure that they were properly 
addressed.
    There was also widespread coverage of the fires at the 
Arkema facility in Crosby, Texas. That facility housed volatile 
chemicals that required refrigeration to prevent them from 
self-igniting.
    When the facility lost power, the conditions deteriorated 
at the facility, which required an evacuation of the facility 
and surrounding areas. Ultimately, there was a series of fires 
that were spontaneous combustion from those materials stored at 
the site.
    EPA used the ASPECT aircraft for air sampling above the 
facility and in the nearby surrounding areas. ASPECT stands for 
the airborne spectral photometric environmental collection 
technology.
    And I know that is a mouthful but, basically, it is an 
airplane that EPA rents that is packed full of EPA-owned 
monitoring equipment so that we can look into the plume to 
determine if there are harmful levels of chemicals or if there 
is any danger either downwind or in the communities surrounding 
the plant.
    The ASPECT flew 28 flights over 112 hours--28 flights and 
over 112 hours, covering miles of pipeline. We looked at 134 
risk management facilities and 456 drinking water plants and 
also 105 wastewater facilities in support of the Hurricane 
Harvey response.
    The data was invaluable and assessed the risk quickly in 
responding appropriately to the emergency and the technology 
was not available through any other parties involved.
    The third asset that we used was a mobile laboratory called 
PHILIS. PHILIS stands for the portable high through-put 
integrated laboratory identification system.
    The PHILIS lab is a mobile laboratory that we deployed in 
Houston that allowed us to get 48-hour turnaround on volatile 
and semi-volatile samples.
    This allowed us to quickly assess the conditions at all of 
the Superfund sites and also any other samples that we needed a 
quick turnaround.
    If EPA did not have access to these tools, our response and 
the dissemination of information to the public would not have 
been as informative and robust. I believe that these EPA assets 
are critical to effective preparedness and response.
    EPA remains activated as an agency continues to respond to 
Hurricanes Maria and Irma. The agency taps resources from our 
sister regions during these times of great need.
    I have seen the agency continue to grow in our 
capabilities, learn from each response and apply lessons 
learned as we face new challenges.
    We are able to make more data available to the public. For 
example, we use story boards as we presented this information 
to the public so that they could understand what each sample 
meant and how it impacted them personally.
    EPA will continue to develop more methods and improve our 
responses by working with our State, local, and other Federal 
agency partners.
    While the response has its own unique challenges, we want 
to remain flexible to address the individual needs. I am very 
proud of the EPA and the other responders when called to duty 
in these times of great need.
    I am happy to answer any questions about the great work 
we've done and look forward to continuing to serve.
    Thank you.
    [The prepared statement of Mr. Coleman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you.
    Now, last but not least is Dr. Shaw, chairman of the Texas 
Department of Environmental Quality. You have 5 minutes, sir.
    Welcome.

                   STATEMENT OF BRYAN W. SHAW

    Dr. Shaw. Good morning. Thank you, Chairman Shimkus, 
Chairman Walden, and Ranking Member Tonko and members of the 
committee. It is a pleasure to be here.
    For the record, my name is Bryan Shaw. I am the chairman of 
the Texas Commission on Environmental Quality and I am happy to 
discuss our response in recovery efforts related to Hurricane 
Harvey.
    First, my agency's primary mission is to protect the public 
health and natural resources by ensuring that the air and water 
and waste are clean and disposed of safely.
    This is a critical part of what we work to is fulfilling 
that mission in the aftermath of a disaster such as Hurricane 
Harvey.
    While we recognize the many challenges that we face and the 
severity of the--of the storm that we had, the key to making 
the response as successful as it was you have heard 
demonstrated through the cooperative nature that we have 
experienced both with our Federal allies as well as other State 
and Federal agencies in responding to the hurricane.
    As was mentioned by Mr. Coleman, TCEQ deployed about 500 
people dedicated to the Hurricane Harvey response. The 250 or 
so folks that worked from EPA to work hand in hand with us were 
critical to addressing one of the major issues we face and that 
is communication.
    At the time that the storm rolls through it is very 
challenging to have the adequate communication and get 
information in a timely manner because, quite frankly, the 
local elected officials aren't always as prepared for a 
hurricane as we might want them to be because typically they 
are spaced out far enough that this is, in most cases, their 
first experience at dealing with a hurricane and when you have 
one of this magnitude it becomes even more critical in having a 
cooperative relationship between the State and Federal agencies 
that respond.
    It is critical both to providing that information as well 
as reassuring those local officials where help is and help is 
on the way.
    This cooperation, I think, clearly demonstrates how well 
State and Federal agencies can work together. We tend to work 
very well with EPA in previous natural disaster response but 
never better than we worked in this response and I think 
considering the unprecedented nature of the severity of the 
storm and, quite frankly, the fact that this storm sort of 
parked over Texas and dumped rain continually, it is--if you 
look at the tragic losses we had but in hindsight considering 
the severity of the storm, the State fared very well, and that 
is attributable to the prior planning, it is attributable to 
the cooperative relationship we had amongst our different State 
agencies and, quite frankly, it is attributable to the 
resiliency and the good neighbors that we have in our State of 
Texas that we are blessed with that come to the aid of their--
of their neighbor in time of crisis.
    I think this fits very well into the Cooperative Federalism 
2.0 effort that is underway and I think that is--I applaud this 
committee for looking at finding ways to be able to ensure that 
the State and Federal agencies are working together.
    The Environmental Council of the States has a process 
underway called Cooperative Federalism 2.0 which is trying to 
incentivize and encourage us moving to that relationship that 
was demonstrated, and so I am very much encouraged by that.
    I will talk briefly because I know we were running short on 
time from the standpoint of my allocated time but I want to 
touch on some of the issues that are ongoing.
    Obviously, debris management is one of those issues that 
continues to be a challenge. This is often what I refer to as 
the slow tragedy associated with an event like this.
    You see some of that initially when you see the debris from 
what is taken out through wind, the tornadoes associated with a 
hurricane, as well as the surge--the storm surge.
    But oftentimes the flood damage you don't see initially 
because those houses seem to be unaffected until you start 
seeing the residents return back and removing the debris from 
inside of the houses, getting the drywall out, moving it to the 
curbs and to the temporary sites.
    And so it is critical that we move quickly to be able to 
help that happen because having those materials remain indoors 
leads to mold and other types of biological contamination that 
can be poor for health as well as making it very difficult for 
communities to rebuild.
    We move it quickly to the curb but you need to move it from 
there quickly because you have vector issues--mice, rats, other 
things--that can be there--mosquitoes breeding. And so we want 
to make sure that we have that process moving along.
    And then from the temporary site getting it into a landfill 
and making sure that we are providing for ultimately, 
environmental and health protections become very critical.
    We are working probably most of our time at this point 
dealing with the ongoing tragedies and needs related to 
disposing of debris, working to quickly identify the temporary 
sites, ensure that we are working with those local officials 
not just to make sure that all the bureaucratic I's are dotted 
and T's are crossed but in making sure that we are both safe, 
protective, and ensuring that we don't have issues that will 
prevent them from getting reimbursement from those recovery 
efforts because those communities have already been hard hit 
from the loss of their tax base, their houses, and their 
businesses. And so we work very diligently to ensure that moves 
quickly.
    So we are continuing to have success there but we will 
continue to have those calls that come as judges and mayors 
realize that the removal process is too slow and we work and 
continue to provide resources to help them both from a 
technical standpoint as well as, when we can, providing 
physical labor and the expertise on the ground.
    Air monitoring--we have heard some discussion from Mr. 
Coleman so I won't go into a lot of detail other than to point 
out that we have a plan in place, our--I call it our common 
sense approach where we make sure that prior to a storm's 
landfall we take down equipment that is going to likely be 
damaged or destroyed in a hurricane and then very quickly bring 
it back up.
    That takes some time, especially when, in many cases, we 
had to wait until we had power restored to an area to be able 
to get air monitors in place.
    We relied very heavily on our Federal partners to be able 
to do sampling as we had case by case needs as well as 
deploying monitors that we could bring in to assess plumes and 
other issues associated with potential emissions from 
facilities.
    I will quickly wrap with drinking water, wastewater issues. 
As was mentioned, we had a couple thousand drinking water 
systems that were in the path of the storm. We still have two 
of those that are inoperable. They are small systems and 
arrangements have been made to allow for them to have water 
brought in so those residents are getting their needs served.
    But we still have 24 systems that are under boil water 
notice, some of that because of damage to the system and some 
of that because, frankly, they're still adjusting to the source 
water changes associated with the storm.
    Wastewater and sewage, we still have three of those systems 
that are inoperable compared to the 40 at the height of the 
process. So it does take a good bit of time.
    I will close with talking about our hazmat, and we do work 
cooperatively but we take the lead with regard to identifying 
containers that may be washed away or moved away during the 
storm.
    And to date, we've had about almost 1,200 of those 
containers that have been located and properly disposed of as 
well as dealing with the spills associated with the storm.
    So you can see that there is a broad range of issues that 
have to be addressed and working cooperatively allows us the 
best chance of being most responsive to our citizens.
    And with that, I will thank you for the opportunity to 
visit with you about this issue. We do have many resources 
available on our Web site and I am happy to provide those web 
links as needed. Those are very helpful both in informing the 
public as well as elected officials about resources that are 
available to them.
    I am happy to answer questions. Thank you, sir.
    [The prepared statement of Dr. Shaw follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman's time is expired.
    And before I start with the opening question, I want to 
recognize Jenniffer Gonzalez, the Resident Commissioner from 
Puerto Rico.
    She's here at a good time to hear the opening statements, 
but also, as I go to my first round of questioning, the first 
one is going to go to Mr. Lopez.
    So I recognize myself for 5 minutes for questions. Mr. 
Lopez, there have been a number of press reports about people 
who are without clean drinking water, drinking from a well on a 
Superfund site in Dorado, Puerto Rico.
    Can you explain the situation there and whether it has been 
resolved?
    Mr. Lopez. Certainly, Chairman, and thank you for that 
question.
    So, again, of course, there was a lot of attention to early 
concerns of the individuals drinking from the wells. Those 
reports were incorrect.
    So, in essence, there has been some understandable 
confusion with the way the infrastructure is designed and 
operable in that area.
    So the wells in question are sealed. They are not 
accessible. Water has been made accessible through spigots at 
those well sites that are part of the super aquifer tied to 
process infrastructure.
    When we first learned about the concern, our first 
response, of course, was humanitarian and we brought bottled 
water and had Army Corps bring water buffaloes to the sites 
because the main concern was we want to protect human health 
and safety, take them away from sites where we had any 
question, and make sure people had potable water.
    From there we engaged in immediate sampling and from the 
results of the sampling we found chlorine residual from those 
spigots. Certainly, wells are not prone to have chlorine in 
them inherently and so our initial deduction was that that was 
treated water.
    We have gone forward to do additional sampling and are 
doing full spectrum analysis. Thus far, our results reaffirm 
and process also reaffirm that along with the Department of 
Health from Puerto Rico that that is part of process water 
supply. They are not from the contaminated wells.
    Mr. Shimkus. Are there any other places on the island where 
this issue may be an issue?
    Mr. Lopez. Not to our knowledge and, again, the concern--
and just to highlight, Chairman, the concern with the Superfund 
site--and this is part of the challenges--Superfund site 
doesn't mean that every water source within the designated area 
is in question.
    What it means in this case with the Dorado site we 
identified a target area--we, at EPA--just to monitor. So where 
sites were known to have contamination those sites have been 
locked down. Other sites we continue to test--I say we, the 
Puerto Rico Department of Health--PRASA--on a regular basis to 
make sure that those supplies remain potable and within Safe 
Drinking Water Act thresholds.
    Mr. Shimkus. Was the Puerto Rican water utility the entity 
distributing water at the Dorado site?
    Mr. Lopez. The Puerto Rico Well Authority--PRASA--was not 
literally distributing the water. The areas in question were 
fenced and signed. There are spigots there and the sites were 
entered into and PRASA was not knowingly willingly 
distributing.
    But we--again, our main concern there was to make sure that 
the water was safe and that is why we brought temporary water 
until we could ascertain the status of the true supply.
    Mr. Shimkus. So in your written statement, Mr. Lopez, when 
you--in your written testimony you note that 20 of the 115 
drinking water plants are out of--out of service. What is--what 
are you doing to remedy the situation about people not having 
access to potable water in Puerto Rico?
    Mr. Lopez. Well, our challenge, of course, Chairman, is we 
assess. So we determine where there are deficiencies, whether 
it be collapse of trunk sewers, whether power be out, and then 
we work with Army Corps, which is mission assigned to work with 
PRASA to make the repairs.
    So funding is provided through the Stafford Act to help 
make necessary improvements. We continue to help provide 
advisories to the population and, again, we are working with 
our partners to make necessary repairs as quickly as possible.
    Mr. Shimkus. Let me, in my last minute and a half, turn to 
Dr. Shaw. My sister-in-law moved out of Houston right before 
the storm.
    But she has a lot of friends back there, and she visited 
over the weekend and it raises the point about waste management 
that you were referring to.
    On her return, she showed a picture of her friend's house. 
About 2\1/2\ to 3 feet of drywall had been ripped out. I mean, 
still, the house will be--take a year probably or I don't know 
how long to get it. So when we see storm damage, which we have 
in tornado season, you see the initial pile of refuse on the 
streets. But then over time you're going to see the refuse from 
being torn out. They're probably going to be in dumpsters and 
they're going to be hauled someplace.
    So the question is, is there sufficient landfill capacity 
with this hurricane debris?
    Dr. Shaw. The short answer is yes. And you are right, part 
of that process is moving from the house to the curb. Usually 
there is about three passes of removing from the curb as well. 
So it is sort of a cyclical process.
    We looked at it very closely and initially estimates were 
quite high what the debris might be.
    The issue is we have enough capacity in those landfills in 
the areas. The real challenges have been twofold. One, does it 
reduce the length of life of that landfill, which is obvious.
    The second part of that is sometimes those landfills, 
because they build them out in cells, they may not have a cell 
that is built out ready to receive all that debris, and so in 
some cases they may have to exceed their permitted height and 
we have a process whereby they can apply to make that happen on 
an emergency basis.
    What will happen is following the passing of the storm they 
will either have to come in and remove that extra cap or they 
will have to go through a permit amendment to get approval to 
leave that landfill at a height that was higher than was 
permitted and then they can build out another cell, if you 
will, and move that waste or at least begin taking new waste.
    Mr. Shimkus. I am way over my time, and I thank you for the 
answer.
    The Chair now recognizes the ranking member, Mr. Tonko, for 
5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Administrator Lopez, as I mentioned earlier, the committee 
has heard alarming reports of people without access to safe 
drinking water in Puerto Rico and the United States Virgin 
Islands, and I heard the exchange with the Chair here just 
moments ago.
    Let's get a little deeper into the drinking water and 
wastewater system issue. Many remain inoperable. Can you help 
us understand what are the sources of those problems of 
inoperation?
    Mr. Lopez. Much of the problem lies with damaged sewer--
excuse me, water mains. We have damaged distribution lines. 
Power is a considerable issue.
    We, again, are working on generators but those generators 
do not always remain operable. So access is an issue. We have 
had plants that, because of mudslides or rain, river action, we 
have had them--access to them denied.
    So at this point, 85 percent of the PRASA system users have 
water and PRASA represents about 97 percent of all the water 
supply to the island.
    There are additional water supply sources--non-PRASA 
systems, very small sources. There are very--there are about 
237 independent water treatment systems throughout the 
mountains.
    We are working with mission assignment, with 
nongovernmental operations to do work there. In some of those 
cases we are, again, trying to get those systems back and 
running. But power, in some case physical damage, in some case 
access. We also have debris issues. In some case, intakes are 
clogged with debris and that has been a challenge for some of 
our operators.
    Mr. Tonko. And just what percent or whatever expression we 
can get from you is concerning electricity failure?
    Mr. Lopez. Oh, my gosh, I have some detail. So I can go 
through--I have a number. I will just run through--I have a 
list. Arecibo alternate power unit, out of service. Esperanza, 
alternate power service out of Muniz. We have quite a few. Most 
of it is power units.
    We do have waterline pipes broken. We do have some cases of 
raw water supply clogged. But much of it is power, and, again, 
we are using generators and other means to try to activate 
those systems. Some systems were flooded, and they had to be 
reassessed even before power could be fully restored.
    Mr. Tonko. And you had mentioned the infrastructure 
failure. What about source water contamination as an issue? Is 
that----
    Mr. Lopez. Of course, we are very concerned about it, and I 
used a phrase Ms. Colon would understand: agua es vida--water 
is life.
    So whether it be water for drinking, water for bathing, 
water for washing your clothes, water for any purpose, we are 
all very concerned.
    We have been--in terms of the contamination of water our 
role has been, first, direct resources to restore water and 
systems to be operable. That's the main goal.
    With individual homes and families we are working with the 
CDC, Puerto Rico Department of Health, and others to provide 
advisories. So boiled water advisories are in effect, have been 
in effect.
    We are also warning people to be--to avoid using these 
supplies for potable purposes. We have worked with the CDC to 
provide alternate disinfection where possible--chlorine tablets 
and other alternate disinfection. So we are taking----
    Mr. Tonko. Oh, go ahead.
    Mr. Lopez. As broadly as we can we are trying to respond. 
But the challenge is we can't control individual human behavior 
and people need water. So our main goal is get water to them as 
quickly as we can--potable.
    Mr. Tonko. Peter, you had mentioned PRASA and with those 
independent systems--those beyond PRASA--are they continuing to 
struggle to provide safe drinking water?
    Mr. Lopez. They are. We are working with them and, again, 
it is case by case. Just mind you that a number of the systems 
are mountainous and access to them continues to be an issue.
    So we are working on assignment to get to them. But at this 
point, we had--we have assessed--bear with me a second. Just 
going to pull up my notes here on non-PRASA. There are 237 
independent community systems and we have assessed them all. 
But getting them all operational is a challenge.
    Mr. Tonko. And of those 237, which are operating?
    Mr. Lopez. Let me--bear with me just a second. About 170 of 
the 237 are operational.
    Mr. Tonko. OK. Thank you.
    And is EPA testing water quality at small water systems?
    Mr. Lopez. We do. Well, the Department of Health--let me 
say this--the Department of Health for Puerto Rico is the 
authority. So our sampling is really not something we do as a 
norm.
    We did sample in the Dorado case where there were concerns 
about drinking from contaminated wells and there we wanted to 
do rear guard action for the Puerto Rico Department of Health.
    But Puerto Rico Department of Health maintains primacy with 
those--with those sites.
    Mr. Tonko. Thank you.
    Mr. Chair, I yield back.
    Mr. Shimkus. Gentleman yields back his time.
    Chair now recognizes the gentleman--the chairman of the 
full committee, Mr. Walden, for 5 minutes.
    Mr. Walden. And I thank the chairman and I thank, again, 
our witnesses for your testimony on all these issues our 
citizens face.
    I know, Mr. Lopez, you've talked a lot about the drinking 
water and we know when the power goes off the pumps don't run 
and purification doesn't work unless you get generators and all 
that.
    But I would like to move beyond that and ask about the 
ability to clean up Superfund sites. How is that being impacted 
along the way here?
    Mr. Lopez. So, Chairman, the Superfund sites were 
assessed--they have been assessed routinely. They were assessed 
before the storm events--Irma. They were assessed after Irma. 
They have been assessed after Maria.
    And much of those sites really are groundwater 
contamination. So they were not really moved by the storm. The 
issue for the storm and where there was damage were in terms of 
fencing and also pump and treat systems, which required power.
    So in those cases, we worked to restore those functions. 
That's what we've been working to do and the--in terms of 
damage----
    Mr. Walden. How----
    Mr. Lopez. I am sorry, sir.
    Mr. Walden. How far along are you on the Superfund site 
protection?
    Mr. Lopez. To my knowledge, things are locked down.
    Mr. Walden. OK.
    Mr. Lopez. So if we've seen additional concerns--for 
example, we found an orphan container that was removed--but we 
are to lock those sites down, Chairman.
    Mr. Walden. Mm-hmm. All right. Is that true for the other 
sites, too? I mean, are we talking about issues in Houston or 
Florida? Are there any Superfund issues we need to be aware of?
    Mr. Coleman. With regards to Texas, there were 34 Federal 
Superfund sites in the State of Texas. We have done the 
assessment of all. There was one site that we listed, the San 
Jacinto Waste Pits site, that did require some additional 
follow-up.
    We have been working with the responsible parties. They 
have plans in place to both do repairs to that site and then 
there is some additional repairs on the river side of the site 
where there was scouring that the PRPs are in the process of 
placing some additional rock to stabilize that portion of the 
site. That is ongoing.
    Mr. Walden. All right.
    Dr. Shaw. And I would just add I believe there are 17 State 
Superfund sites, and at those we worked very closely with EPA 
on both the Federal and the State and secured the sites.
    All those sites we're finding there was a release 
potentially from one that was a sheen that we saw on water and 
that has been dealt with. So but no offsite concerns at this 
point. Everything is locked down.
    Mr. Walden. So can you all give us assurance then that when 
it comes to the issue of Superfund sites we are not 
contamination into drinking water, that these sites are secured 
best they can be, that you've got this under control?
    Dr. Shaw. Yes, sir.
    Mr. Coleman. Yes, sir.
    Mr. Glenn. Yes, sir.
    Mr. Lopez. Yes, sir.
    Mr. Walden. Perfect. That's good news. I think that had a 
lot of us worried, including, I am sure, all of you. You know, 
that is the most dangerous things we face.
    Beyond that, you know, as we--as we keep hearing about the 
power going on and going off in Puerto Rico and we knew they 
had a bad grid to begin with, what should we be worried about 
here?
    What can we do to help here on that issue of power and how 
much of this is really the responsibility of the grid owner and 
the power provider in Puerto Rico?
    Mr. Lopez. Well, Chairman, again, I think part of the 
challenge is, as I mentioned in my testimony, the system itself 
is old.
    Mr. Walden. Right.
    Mr. Lopez. And we heard testimony from Army Corps with the 
Transportation and Infrastructure Committee suggesting that 
their average age of power plants are much younger than Puerto 
Rico's.
    So we are dealing with a system that was old and challenged 
to begin with, and I think part of our goal is, one, how do we 
put power back on but the long-term and----
    Mr. Walden. Keep it on.
    Mr. Lopez [continuing]. And for Senora Colon: ese es nombre 
de mi familia tambien--my family has that name as well--how do 
we make sure that it is sustainable and survivable for future 
events? So that is an open question.
    Mr. Walden. And from what you have seen on the ground, 
again, on Puerto Rico or the Virgin Islands especially, are 
there--are there enough crews? Are the various agencies 
communicating well with each other?
    Are there gaps in that communication we should be aware of? 
It is always hard in these situations, I know, but----
    Mr. Lopez. So, Chairman, we work under a command and 
control function. We work with our incident commanders. There's 
very close communication with FEMA, Army Corps, our other 
partners.
    Our regions have been providing support where we signal. We 
have been very thankful to my colleagues here for their staff 
support as well.
    I would say that the communications are strong. The 
challenge is making sure that we can get the resources when we 
need them.
    The other challenge which we have been working at is also 
making sure that we are working with the local authorities and 
respecting their process--their decision making capability, and 
that is--that means in some cases we have to put things in 
front of them and give them time, recognizing--and this is the 
challenge for those in the situation--if you have been in a 
storm event and you are under constant duress, we are rotating 
crews in and out routinely----
    Mr. Walden. They are there----
    Mr. Lopez [continuing]. They are working under constant 
duress. So part of our challenge is helping support their 
decision making and give them time and support they need so 
they can be at peace with mission objectives and corrective 
action.
    Mr. Walden. OK. Did you have something you wanted to--no? 
OK.
    My time has expired. Mr. Chairman, thank you all for the 
great work you and your teams and the teams from all the 
agencies are doing the best they can in these circumstances and 
we appreciate that.
    But, again, we want to know if there is a problem that you 
need help on or they need help on, and I know that our resident 
commissioner has been terrific at bringing us all up to speed 
and keeping us up to speed.
    So with that, Mr. Chairman, I yield back.
    Mr. Shimkus. Gentleman's time has expired.
    The Chair now recognizes the ranking member of the full 
committee, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    Five years ago, Superstorm Sandy caused major damage to my 
congressional district including Superfund sites and water 
treatment facilities and we have seen even more of that with 
the latest hurricanes.
    So I would like to focus briefly on the importance of 
investing and making our environmental infrastructure more 
resilient.
    In the aftermath of Sandy, I saw the importance of this 
firsthand when the storm badly damaged the Bay Shore Regional 
Sewage Authority, which treats the wastewater from a number of 
the towns in my district, and the authority completed a $28 
million project to rebuild the plant and make it more resilient 
to future storms.
    But I don't think we should have to wait for disasters to 
make our infrastructure more resilient. So let me ask Mr. 
Lopez, what can EPA do to help communities in Puerto Rico and 
the Virgin Islands improve their drinking water and wastewater 
infrastructure to make it more resilient?
    Mr. Lopez. Thank you. Thank you, Chairman.
    So part of the challenge is, again, part of it is the time 
we are in. Under the Stafford Act, we are in response. So this 
is an emergency. So it is my understanding that Stafford Act 
funding means you build in kind--you replace in kind.
    So the issue is, and this goes back to you as our partner 
and our colleagues here, where do we signal programmatic and 
funding flexibility to allow other sorts of investment.
    Now, just as an example, with the nongovernmental allies 
that we have had with the nonprocess sites, we have been able 
to put solar systems in a few isolated incidents.
    Mr. Pallone. All right.
    Well, let me ask you this. Do you think that we need to 
invest more Federal dollars though in environmental 
infrastructure in general as part of this recovery or is it 
just your concern that we are not focusing on long term?
    Mr. Lopez. So I am a little bit above my pay grade, 
Congressman, but bear with me. So I am going to speak from the 
heart.
    So, effectively, it is a function of targeting dollars--
making sure dollars are reachable and also ensuring that the 
broad purposes can be served.
    So, again, we have many various funding streams. It is not 
generally one funding stream, like my colleague, Mr. Cochran 
knows.
    Mr. Pallone. OK.
    Mr. Lopez. So to answer your question, I think part of our 
challenge here would be to look at funding streams, look at 
resources, ensure that we have maximum flexibility in their 
use. Part of this----
    Mr. Pallone. OK. And particularly the emphasis on looking 
at long-term rather than just short-term to fix things.
    All right. I am just rushing through because I wanted to 
ask a question about the Superfund, too. As you know, Hurricane 
Harvey damaged a lot of Superfund sites in Texas including one 
site where hazardous dioxins were exposed and I think we should 
be doing more to limit the impact of severe weather on 
Superfund sites.
    So let me ask Mr. Coleman. You only briefly mentioned 
Superfund. But is it--it is a priority, I think, for a lot of 
communities. Do you agree that more resources for Superfund 
cleanups would mean few contaminated sites vulnerable to 
extreme weather?
    Mr. Coleman. So the site in Texas that you mentioned--the 
San Jacinto Waste Pits site, is a site that is under EPA 
oversight but there are accountable responsible parties who are 
both responsible for the day to day security of the site as 
well as----
    Mr. Pallone. But my question is do you agree that more 
resources for Superfund cleanup would mean fewer contaminated 
sites vulnerable to extreme weather? You can just say yes or 
no. I mean, I just want to know if you think money or resources 
would make a difference.
    Mr. Coleman. Well, we are working with the funds that are 
appropriated to make sure that those sites that require Federal 
funding are cleaned up as expeditiously as possible.
    Mr. Pallone. All right. All right.
    Let me go back to Mr. Lopez. We heard troubling reports out 
of Puerto Rico, citizens drawing drinking water from a well on 
an unsecured Superfund site. What more could EPA do to protect 
public health from exposures to toxic sites after severe 
weather strikes?
    Mr. Lopez. So, Chairman, as I was mentioning to your 
colleagues, the contamination in the groundwater was really not 
affected by the storms, to our knowledge.
    The issue was making sure that the mitigation methods that 
were in place were functioning as intended--fencing, pump and 
treat seat systems.
    The--in Dorado, the wells in question were not accessible. 
Power supplies had been disabled. There was no ability to pull 
water from the wells. So the source of water, again, was from 
the--from PRASA, from the public----
    Mr. Pallone. Do you think that we could do more to 
protect--could EPA do more to protect public health from 
exposure to toxic sites after severe weather strikes or, again, 
this is just simply fixing damage?
    I mean, the concern I have is, again, what you said--that 
maybe we are just simply fixing damaged fences, blocking access 
to these sites. I mean, this goes back maybe to what you were 
saying before. But just----
    Mr. Lopez. So at those sites the wells were not accessible 
of for public access, again, the groundwater contamination was 
there before the storm and remains, and that is something we 
continue to work on.
    So our challenge is to mitigate--again, track any plumes, 
for example, in the Dorado site. We are tracking a plume so we 
test water supplies. We test--vigilance is really the issue 
here.
    We remain vigilant, and we certainly understand the 
importance of making sure that we are staying within Safe 
Drinking Water Act standards, keeping people under those 
thresholds with their water supply.
    Mr. Pallone. All right.
    Mr. Lopez. So monitoring, continue testing--those are--and 
then mitigation remain the tools available to us.
    Mr. Pallone. All right. Thanks a lot.
    Mr. Shimkus. Gentleman's time expired.
    The Chair now recognizes the vice chairman of the 
subcommittee, Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman, and thank you again 
for having this hearing on this.
    Let me skip from Region 2, 4, and 6 and move to Region 3 
out of Philadelphia. There's an area that--the flooding that 
had taken place the hurricanes had an impact not only in Texas 
and Florida and Louisiana, along the coast, but it had a 
demonstrative effect in north central West Virginia, in eastern 
Ohio, northern West Virginia, western Maryland, western 
Pennsylvania in the streams.
    The water that--the amount of water that came down during 
that period of time we washed out--our streams were full of 
debris, full of items that should have been dredged, and as a 
result we had water lines lost, exposed.
    We had septic systems that were destroyed. We had water 
pumping stations that went down because of this. So I am just 
curious--and we had loss of life in north central West Virginia 
as a result of this.
    So it is not just happening with hurricanes in the coastal 
areas that we are talking about--the ravaging that took place. 
It has had an effect on the central part of this country as 
well.
    So my question, when they try to get the dredging of these 
streams so that they can mitigate the potential loss, often we 
are hearing from the region--the EPA is they won't give 
permits.
    They go through an extended permitting period. Either that, 
or FEMA steps in the way or an environmental group steps in the 
way.
    So if we are going to mitigate the potential loss and the 
environmental impact, what would you suggest that we do in 
other areas to clean up our streams if the EPA continues to 
stand in the way of dredging? Any one of you?
    Mr. Lopez. Yes. Yes, sir, I can help with that and, again, 
it is funny how life brings you--moves you forward.
    So with Irene and Lee in northern Appalachia--again, we are 
just north of you. I had Southern Tier. I had the Susquehanna 
River Valley. We had the Catskill region.
    To answer your question, part of our challenge is, is as we 
get into these streams we have to be very careful because any 
impact upstream can have an impact downstream.
    In my home community, the urgent response was to just dig 
into streams and we wound up channelizing our streams. Water 
began flowing faster and destabilizing the stream banks and 
emergency evacuation routes were compromised.
    Short story is as we get in, we are working with NRCS, 
others--DEC and New York State--to try to look at it from a 
watershed basis.
    Some of it means restoring flood plains. Some of it means 
restoring the natural flow of the streams. Getting in to clear 
debris can be an ongoing mission but we also have to recognize 
that we have to give room for streams almost like a living 
organism to get rid of energy and to have a place----
    Mr. McKinley. I understand.
    Mr. Lopez. So----
    Mr. McKinley. But the EPA and FEMA are standing in the way 
of permitting to do that. We have got to--we had--at 
Follansbee, West Virginia, they have had a--their stream is 8 
feet of gravel and sand have built up in that so as a result of 
this they had no capability of absorbing the amount of water 
that came down, and homes were washed out as a results of this.
    Mr. Lopez. So--so----
    Mr. McKinley. So I am saying----
    Mr. Lopez. You know, Chairman, respectfully, I have Region 
2, so I am your neighbor in New York, in particular, similar 
topography.
    I can only tell you that the partnership there has been 
with the State agent. DEC has been the agent in charge. EPA has 
worked----
    Mr. McKinley. The State keeps blaming the Federal 
Government. Where are we supposed to get through this, so that 
we can mitigate the potential loss?
    We can eliminate a lot of these damages and the 
environmental impact if we could clean our streams out. But 
other people keep blaming Region 3.
    Is there something you can suggest? Is it happening in 
other areas that you're seeing a more successful relationship 
to dredge these----
    Mr. Lopez. Congressman, if I may, what I'd like to do with 
your permission is take your information back to our 
headquarters----
    Mr. McKinley. Please.
    Mr. Lopez [continuing]. See if we could research this issue 
for you.
    Mr. McKinley. Please. The other has to do also when Rick 
Perry said that hitting a Category 4 which had such devastating 
effect on the petrochemical industry and has been suggesting 
that we build a secondary facility in Appalachia with an ethane 
storage facility in the north central eastern Ohio and western 
Pennsylvania. As a result, maybe we wouldn't have such loss of 
product if we had something other.
    So I really appreciate the fact that the commissioner and 
Pruitt all are working together to try to find a secondary 
source on this--a supply.
    I think it would eliminate some problem because we know 
that when that hit--Hurricane Harvey hit, out of the 23 cracker 
facilities in the Houston area, 17 went down.
    So as a result, it had that ripple effect all across the 
country that people couldn't get resident supplies and 
companies had to reduce their workforce as a result of it.
    So I am hoping that we can continue to learn from this 
problem that has occurred and how we can have a secondary 
source, and we are not going to have both environmental impact 
and economic impact.
    I yield back.
    Mr. Shimkus. Gentleman's time has expired.
    The Chair now recognizes the gentleman from California, Mr. 
Peters, for 5 minutes.
    Mr. Peters. Thank you, Mr. Chairman, and thanks to the 
witnesses for being here.
    You know, I think--I spend a lot of time when I see these 
awful disasters come they--they, obviously, cause a lot of 
dislocation and tragedy.
    They also cost us a ton of money at the Federal Government 
for cleanup, and I think a lot about what you might have 
learned as part of the cleanup that you might advise us to 
invest in ahead of time.
    So what are the things that maybe you've observed that you 
think, boy, if the Federal Government had invested in this 
beforehand we would have saved a lot of money in the long run.
    Anything in general that you gentleman saw? Maybe Dr. Shaw?
    Dr. Shaw. Yes. Thank you.
    Certainly, that is part of what we--we have an ongoing 
process of trying to do the lessons learned and to that end we 
are in our second week of our after action review to learn the 
right lessons from this.
    Part of what I think addresses your question is the fact 
that the Governor has put together a commission to rebuild 
Texas and part of what we are looking at there is identifying 
what are those resilience issues, opportunities, and needs both 
to build back infrastructure but also what do you do--what is 
that next step you would do if you had additional funds or 
funds----
    Mr. Peters. Anything in particular in mind right now?
    Dr. Shaw. There are things like several--sometimes it is a 
reservoir--excuse me, a retention system. We have dykes and 
levy systems that have been proposed and often are waiting on 
funding.
    Mr. Peters. OK.
    Dr. Shaw. And so there are projects that had been approved 
and are just waiting on funding that would help to mitigate 
some of those flood issues.
    So those sorts of things are obvious and so we are trying 
to put together a better holistic package of what it looks like 
statewide but especially in the Hurricane Harvey impacted area.
    Mr. Peters. That seems wise to me.
    Before I leave you, Dr. Shaw, have you had--we have had a 
lot of--we have had issues with massive sewer spills that have 
flowed and come from Tijuana up into San Diego, which I 
represent.
    I wanted to see if you've had any experience in dealing 
with clean water and health issues with the CDC or FDA in 
connection with the issues you face in Texas.
    Dr. Shaw. Not specifically.
    Mr. Peters. How has that been?
    Dr. Shaw. Not specifically CDC and FDA. We partner, 
obviously, with EPA very closely on our--on our water quality 
issues but I've not had experiences with CDC and FDA on those 
issues.
    Mr. Peters. OK.
    Maybe, Mr. Lopez, if you had any general responses to that 
question about Puerto Rico. I had a specific one, but any 
general thoughts about what resiliency the Federal Government 
might be involved in building in so that we don't face the 
quantity of destruction that we saw this time next the 
wastewater----
    Mr. Lopez. Thank you, Congressman.
    And, again, we mentioned a little bit about flexibility 
with funding to ensure that as rebuild occurs or as we move 
forward, because recognize that once we leave the response mode 
we head into recovery and that is going to be a very long 
conversation.
    And for any of my colleagues here we know that that is not 
just months. That may be years, and that may include additional 
rebuilding, reinvestment, flexibility of funding.
    The other thing that I was discussing with my colleague--my 
deputy, Ms. McCabe--is the issue of, in that case, having 
resources available or prepositioned, having----
    Mr. Peters. Right.
    Mr. Lopez [continuing]. Because of their isolation having 
resources prepositioned would be very helpful.
    Mr. Peters. Let me go back a step, because you are still--I 
think you are still--you are still framing the response issue. 
Let me just----
    Mr. Lopez. We are very raw there. Yes, sir.
    Mr. Peters [continuing]. Give you an example of something 
that I just read about, which is Tesla restoring power to the 
Children's Hospital in Puerto Rico with a solar and storage 
project.
    Now, it seems to me, I know--I think that Puerto Rico burns 
bunker fuel, which is a logistical issue. You've got to get 
that--you got to get there and, obviously, it speaks to the age 
of the power plant.
    You have got--I mean, I am sure you had a grid issues that 
are affected by the wind. But it does seem to me--what I 
noticed in Puerto Rico was after the storms stopped, the sun 
was shining, and had there been distributed energy through 
solar--smart solar investments, things like hospitals would be 
up online ahead of time.
    I would certainly suggest that that is something we ought 
to be thinking about in these island places which are so 
isolated you can't just send a truck of bunker fuel out there.
    Had we invested in solar in some of these facilities, 
particular the--around the critical infrastructure like 
hospitals--the Children's Hospital--ahead of time, I think, you 
know, a lot of these people wouldn't--wouldn't have been 
affected in the same tragic ways.
    I guess--maybe I will turn to Mr. Glenn and Mr. Coleman. Do 
you have any sort of lessons learned in terms of pre-disaster 
investments we might be considering right now so that next time 
this happens we won't be so on our heels?
    Mr. Glenn. Well, I am fairly new to the Federal Government. 
I have been here two months----
    Mr. Peters. Welcome.
    Mr. Glenn [continuing]. And prior to that in the private 
sector. Thank you. I am enjoying it. Here is what----
    Mr. Peters. I enjoy it sometimes.
    [Laughter.]
    Mr. Glenn. Here is what I walked in and observed, literally 
day one on this was the communications interaction and 
relationships that we had with our peers at the State level and 
at the local level as well.
    So the one lesson I learned was we cannot do enough 
coordination with our State and local and Tribal partners to 
make sure that we know what their systems are, we know who the 
people are and we train together and work together so that we 
can respond to this and that is the huge takeaway I had from 
this for the--relative to the impacts in our region.
    Mr. Peters. Thank you.
    Mr. Coleman, my time is expired but maybe someone else will 
as you the question.
    Thank you. I yield back.
    Mr. Shimkus. Gentleman yields back his time.
    The Chair now recognizes the gentleman from Houston, Texas, 
Mr. Olson, for 5 minutes.
    Mr. Olson. I thank the Chair.
    I would like to start out with a point of personal 
privilege. Yesterday we found out that----
    Mr. Shimkus. Not again.
    Mr. Olson [continuing]. Found out that a fellow Texan--this 
is good. Not good, but sad. A fellow Texan, Gene Green, 
announced this will be his last term in Congress.
    He is a dear friend, a great Texan. We will miss you, but 
thank you for your service, my friend.
    Welcome to our four witnesses. A special Texas Aggie howdy 
to Chairman Shaw, and my question will be for you, Chairman 
Shaw and you, Mr. Coleman.
    First of all, could both of you talk about the sorts of 
hazards you saw in the Houston area and all of the area 
impacted by Harvey after Harvey left?
    I know, for example, we had some pretty foul water that 
threatened with bacterial infections and we had debris piles 
that were magnets--as mentioned, snakes, rates, other animals.
    In fact, a young girl who lives in Texas 22 in Sienna 
Plantation was out working in Wharton, was bit by a copperhead 
snake in a pile of wet soaked clothes. So my question is do we 
know anything about how to respond to these threats with Harvey 
or was it just a larger scale of what you know you have to deal 
with when a storm hits like Harvey did?
    Dr. Shaw. Thank you, Congressman.
    Certainly, with regard to this event, it is--a lot of the 
issues you see are common to a flood event but uncommon from 
this nature of the magnitude and the breadth of the impacted 
area.
    So with regard to flood waters, anytime we have floodwaters 
that are going to inundate wastewater treatment plants you are 
going to have bacterial contamination and that is why our 
response cooperatively with the EPA was to provide information 
about how to deal with contamination from flood water.
    With regard to the debris, certainly the magnitude of the 
debris is a challenge and it is exacerbated because of the fact 
that you have waste haulers, for example, that may have 
contracts up and down the coast and when you have--the impacted 
area is up and down the coast you don't have enough resources 
there potentially to respond in a timely manner and it is just, 
you know, 30-plus million cubic yards of debris is an awful lot 
of debris to deal with.
    Mr. Coleman. And I would just say that during a natural 
disaster or any type of disaster there are many, many hazards. 
Our goal really is to inform the public very quickly of how 
they can best protect themselves while they are also trying to 
restore and recover their own property.
    With regards to flood waters, we really advise people to 
minimize their exposure because the waters are contaminated and 
there are many hazards associated with that.
    You mentioned some of the other things. People have to 
really wear protective equipment and be completely vigilant as 
they work on their individual property to restore that. I 
meant, that is very, very important and we work closely with 
our State and local partners to make sure that that information 
is put into the hands of every individual so that they 
understand what they have to deal with.
    Mr. Olson. You mentioned the constant threats out there. 
For example, a first responder in Missouri City had a flesh-
eating virus. Somehow, it got into his--he had a little small 
cut probably from working through a debris field and got 
exposed to that virus. So thank you, thank you for getting 
ahead of the curve.
    And you guys mentioned, I think--if I quote you correctly, 
Mr. Coleman, you said the coordination between you and Dr. Shaw 
was, quote, ``exceptional,'' and I think it was on the ground 
and that is what--that is my opinion as well.
    But I have concern. You said you prepared for that with 
exercise after exercise with TCEQ. How do you do that with a 
storm like Harvey, a big storm like that, and also how about 
with three storms?
    You have Irma and Marie hit at that same time. Can you 
coordinate with different regions as opposed to TCEQ? I mean, 
boy, that is a big challenge, isn't it?
    Mr. Coleman. Yes, sir. It is a big challenge. We work very 
closely. There is an annual hurricane exercise that the State 
organizes that involves EPA, the Corps of Engineers, other 
State agencies as well where we really go through the game 
planning as to who does what making sure we have all of the 
proper contact information, everybody knows what their lane is, 
and what capabilities that they bring to the table.
    So we participate in that. We also work on a daily basis to 
deal with much smaller incidents with the State so that our 
staff and their staff know each other well and they work 
seamlessly together to respond to these incidents.
    Mr. Olson. Dr. Shaw, you want to add something to that?
    Dr. Shaw. Yes. I would--I would say that we actually--in 
one of those exercises we had the foresight to mock up a 
response to a Category 3 hurricane making landfall in Corpus 
Christi.
    Harvey was a 4, making landfall just north of Corpus 
Christi, but it points out the fact and the way I usually 
characterize the importance of these exercises is we need to 
make sure that whenever we show up for the real thing we are 
not making introductions to our colleagues and counterparts in 
other agencies.
    We already know who they are. We know them by face and by 
name, and so those exercises are priceless so that we can hit 
the ground running, not having to make introductions to try to 
figure out a game plan.
    We already have the game plan. We've already practiced it. 
We begin implementation.
    Mr. Olson. Thank you. Mr. Chairman, I noticed my time has 
expired and I will close by saying, at 9:54 this morning, all 
four witnesses confirm they are happy my Houston Astros won the 
World Series title.
    I yield back.
    Mr. Shimkus. I hadn't heard that before, so thanks for 
letting us know that.
    The Chair now recognizes Mr. Green for 5 minutes.
    Mr. Green. Well, I am proud of the Astros, too. But I want 
to thank our panel for being here and thank the Chair and the 
ranking member for holding the hearing today on Hurricanes 
Harvey, Irma, and Maria.
    I also want to thank our panelists--for the panel, 
particularly Administrator Coleman and Dr. Shaw, and I know the 
partnership that you've had between our regional office of EPA 
and the State has been--even when I was in the legislature 
years ago.
    And I want to thank the EPA for the decision last month 
after our new administrator viewed the site to remove the 
cancer-causing dioxins out of the San Jacinto Waste Pits, and 
that is both on the north side of Interstate 10 and the south 
side of Interstate 10. And it is an important issue in east 
Harris County.
    I have represented it off and on over the years, first as a 
State senator and then in Congress, and I shared it with Ted 
Poe. Now I share it with Congressman Brian Babin.
    So we need to fully remove the contaminated soil and 
accelerate it with the recovery--discovery of the damage and 
the temporary cap during Hurricane Harvey.
    Administrator Coleman, what is the time line for EPA to 
begin the removal of the contaminated material from the San 
Jacinto Waste Pits?
    Mr. Coleman. Thank you, Mr. Green, for that question.
    So, as you know, we've issued the recommended decision in 
October. We are working with both the Justice Department and 
the responsible parties on this special notice and negotiating 
a consent decree that will facilitate the specific design and 
then removal.
    Specifically, we expect the negotiations to take six to 12 
months in working with the responsible parties. The design 
activities can take as long as another six to 12 months and 
then the work will start.
    So I can't give you a specific time frame because those 
negotiations are complex and do involve a number of issues that 
we have to work through with them.
    So but that is generally what we expect to see.
    Mr. Green. OK. Well, I would hope you would provide 
information and EPA has been doing it to the constituents out 
there for, like I said, mostly Congressman Babin now. But I 
sure have a lot of people who go out and crab and fish right 
near those sites and I would--we'd like to make sure they're 
not, well, consuming that but also to make it much more safer.
    And so the process will take almost a year, and I 
understand the difference because the temporary cap is about a 
$20 billion and then the permanent cap or the permanent removal 
is anywhere--the latest estimate, I think, from EPA was almost 
$120 billion.
    Mr. Coleman. That is correct--$115 million to $120 million.
    Mr. Green. And so I expect the responsible parties have the 
option of going to the courthouse and making that decision. But 
I understood the original report from the regional office to 
the national office was really strong opinion on what needed to 
be done.
     Our district also includes--and this is in our district 
and has been forever, it seems like--the U.S. oil recovery in 
Pasadena, Texas, it is actually on a--near a bayou in Texas. 
Pete's gone but it is Vince Bayou coming through Pasadena and 
into the Houston ship channel or Buffalo Bayou. And many 
members of the public and local media voiced concern about that 
toxic material mitigating into the Vince Bayou.
    Was there any information from that site that it--did any 
of that site bleed into the--into Vince Bayou and ultimately 
Buffalo Bayou and the Houston ship channel?
    Mr. Coleman. Again, thank you for that question.
    As you know, the U.S. oil site consists of two nearly 
adjacent locations but they are separated by a road and they 
are different in elevation.
    So the former City of Pasadena wastewater treatment plant 
was flooded and because of the nature of what they did there, 
which was treat wastewater, we do recognize that there were 
probably some releases of things that were at that site. But we 
also know that they never stored hazardous waste or recycled 
oil on that portion of the site.
    The second portion of the site, which is located at a 
higher elevation, where they did process oils to recover, that 
site actually did not flood.
    It did, of course, sustain over 50 inches of rainfall. So 
some of the buildings which are in somewhat disrepair there was 
rainfall that entered the buildings.
    There was some--we would call it storm water runoff that 
occurred and we did assess Vince's Bayou. We looked very 
closely at the receding waters and collected samples. We did 
not see that anything significant left that upper portion where 
the waste oil was processed.
    So we feel confident that Vince Bayou only received some 
runoff from that lower area that was the former Pasadena 
wastewater treatment plant.
    Mr. Green. OK. Is there a viable----
    Mr. Shimkus. Quickly, please.
    Mr. Green [continuing]. Or responsible party for the U.S. 
oil site?
    Mr. Coleman. Yes, sir. We are working with the responsible 
parties. They say a group of investors who are actually working 
to both maintain stabilization of the site as well as working 
with us on a more thorough investigation and, ultimately, a 
cleanup of that site.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Shimkus. Gentleman's time has expired.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and gentlemen, thank 
you for joining us today.
    Mr. Lopez, prior to the hurricanes hitting Puerto Rico this 
season, most people would have characterized the municipal 
solid waste landfills as a mess even on a good day, with 19 of 
the 29 landfills operating out of compliance with Federal law.
    So what's the status of the landfills in the--in the wake 
of the hurricanes today?
    Mr. Lopez. So the landfill status, of course, as you 
mentioned, we had challenges and continue to be challenges on 
the island.
    Debris management, which is really the response, is a 
complicated undertaking. So there is pressure, of course, to 
put more material into the landfills.
    But what we are attempting to do, working with Army Corps 
and our partners, is to separate the waste streams and dispose 
of them in a fashion that relieves pressure on the landfills.
    So whether it be vegetative debris or hazardous medical 
waste--any number of elements that could wind up in a 
landfill--we are working aggressively to separate out and 
dispose of, working with the authorities in a proper fashion.
    Mr. Johnson. So are they still a mess?
    Mr. Lopez. So a landfill situation that existed prior to 
the hurricane remains----
    Mr. Johnson. No. No. What are--what's the status today?
    Mr. Lopez. So the landfills continue to operate as they did 
before. There has been no change in that.
    Our challenge--incident challenge is handling the debris, 
keeping the landfills functioning but also handling the debris 
which could accumulate in the landfills if not properly 
intercepted.
    Mr. Johnson. Do you--do you think that Puerto Rico should 
keep its delegation authority under Subtitle D?
    Mr. Lopez. Ultimately, the--and, again, we--this will be a 
longer-term conversation, Congressman. So our challenge will be 
to help support the local authorities. I feel that that is the 
appropriate thing to do.
    We want to support them, give them capability, help provide 
resources where we can and also address other ways other than 
landfilling to address their solid waste.
    But recognize that that is not EPA's function as a--as a 
role. We don't usually do solid waste management. We defer to 
the local government authorities for the actual management of 
solid waste.
    Mr. Johnson. Is it--is it fair to say that current debris 
removal since the hurricanes--current debris removal is going 
to further overload the already filled capacity in those 
landfills?
    Mr. Lopez. We are working to intercept it. There is a 
danger--there is always a possibility. But we are working very 
aggressively and thoughtfully with the leadership to identify 
waste streams and properly provide siting to separate them out 
and mitigate them appropriately. So there is always a potential 
but we are working to minimize the impact.
    Mr. Johnson. OK.
    Mr. Coleman, in your testimony you write that while each 
response has its own unique challenges, we remain flexible to 
address individual needs.
    So as you indicated, things like geographical constraints, 
economic conditions, damage extent, and infrastructure 
vulnerabilities are all factors that shape Federal agency 
response when a natural disaster strikes.
    In other words, how we respond to Houston's challenges is 
clearly different than those of Puerto Rico's challenges. So 
how does the EPA currently ensure response efforts take these 
challenges and regional characteristics into consideration?
    Mr. Coleman. So we work--we have a national cadre of 
responders that work very closely together on training and that 
forms the baseline of how we respond.
    As I mentioned, we have a set of technical assets--the 
ASPECT, TAGA, PHILIS--that also provide that specialized 
equipment. But then we work very closely with our State 
partners in each location as well as those other State agencies 
that we work with,with our FEMA regional offices, with things 
called regional response teams that then do additional 
specialized training and facilitation as it relates to the 
specific incidents that may occur in different geographic 
areas.
    So those multiple layers of training exercises, having the 
right equipment, allows us to then be adaptable and flexible in 
responding to all types of different disasters and events.
    Mr. Johnson. OK. Is there room for improvement?
    Mr. Coleman. I believe that there's always room for 
improvement and, as Chairman Shaw indicated, the State does an 
after-action report. We are doing a similar exercise. We 
participate with the State side.
    But we also have them participate and critique our work so 
that we can make improvements and we do that after each event 
and we memorialize those lessons learned so that, as we 
incorporate that into our training going forward, we are able 
to make those improvements.
    Mr. Johnson. OK. All right.
    Thank you, Mr. Chairman. I yield back.
    Mr. Shimkus. Gentleman's time has expired.
    The Chair now recognizes Dr. Ruiz from California for 5 
minutes.
    Mr. Ruiz. Thank you, Mr. Chairman.
    I want to throw out a compliment to my colleague from Ohio 
who just asked those questions. Those are very good questions, 
very insightful. Thank you for asking those questions.
    I want to continue on that line in terms of coordination 
and some local flexibility problems that I saw when I went to 
Puerto Rico myself that was an unscripted visit.
    I went on my own accord and I visited a lot of locations 
impromptu so I can get the real story and not the script that 
folks would like to give you, and I had great assistance when I 
was on the ground as well.
    And by way of background, I am an emergency medicine 
physician trained in public health and also trained in 
humanitarian disaster response from the Harvard Humanitarian 
Initiative and other locations.
    We talked about coordination. Let me just ask an open-ended 
question. Mr. Lopez, who is running the show in Puerto Rico? 
Who is--who is really in charge?
    Mr. Lopez. So, understandably, we are under a command and 
control structure, as we mentioned. Again, FEMA makes the 
mission assignments.
    Mr. Ruiz. OK.
    Mr. Lopez. So mission assignments are handed out by FEMA.
    Mr. Ruiz. So you would say FEMA is in charge?
    Mr. Lopez. Through our command and control structure.
    Mr. Ruiz. Yes.
    Mr. Lopez. That is--again, as we interact we take mission 
assignments from FEMA----
    Mr. Ruiz. OK.
    Mr. Lopez [continuing]. And we work with our headquarters 
in our regional offices for support.
    Mr. Ruiz. OK. And how are you coordinated? Where--like, how 
does that information get down to the EPA folks that are in the 
field?
    Mr. Lopez. So we have a command and control structure and 
in our region we have an incident coordinator.
    Mr. Ruiz. Yes, and where is that incident coordinator 
located?
    Mr. Lopez. He is in Edison, New Jersey. We also have 
staff----
    Mr. Ruiz. In New Jersey.
    Mr. Lopez [continuing]. We also have staff--and this is--
this is critical for Puerto Rico--we also have staff embedded 
on the island. So----
    Mr. Ruiz. Where exactly are they embedded?
    Mr. Lopez. Guaynabo.
    Mr. Ruiz. Guaynabo.
    Mr. Lopez. And also out of San Juan.
    Mr. Ruiz. And where else are they embedded? In San Juan?
    Mr. Lopez. San Juan.
    Mr. Ruiz. OK.
    Mr. Lopez. So we have staff embedded there. We also have 
some staff----
    Mr. Ruiz. OK. So, you know, the point I am making is that 
when I was there the number-one thing you need is clarity in 
leadership, in roles and responsibilities, and having to bring 
in all the--all the local players, as Mr. Coleman was talking 
about, and everybody in a very flexible rapid response group 
and I didn't see that in Puerto Rico.
    We are using a spoke and hub model that is basically run 
out of San Juan. Very top-down heavy information is being sent 
out.
    All the different agencies are working in silos. They 
weren't even communicating with each other. So there is things 
like you mentioned, obstacles in being able to reach certain 
geographic locations.
    I worked with the 82nd Airborne closely in Port-au-Prince 
right after Haiti. Those--those men and women can move 
mountains to get supplies anywhere in the world and I didn't 
see that kind of coordination on the ground to get those 
supplies, to get the people where they needed to go.
    So here is what I am proposing, and I am speaking to every 
else, is, you know, the challenges of Puerto Rico are very 
different than the challenges in Houston and Florida.
    You don't have a large concentration of population with an 
infrastructure that is intact--electricity and communication. 
You still have the majority of people without power. You still 
have the majority of people who have difficulty finding that 
clean water. And you say some of the--some of the water systems 
are operational.
    What does that mean, operational? Because I have been into 
some hospitals they say are operational but that is only one 
floor of the five floors of the hospital, but yet people want 
to tout them as operational.
    So what we need to talk about is capacity and what is the 
capacity of the infrastructure to reach how many people. 
Oftentimes, gentlemen, we get--we get the reports of how many 
people on the ground, how many water bottles, how many systems.
    But that is not the way that you manage or that you count 
accountability in a disaster response. We have to talk about 
capacity. So what is the capacity of the different agencies and 
the different infrastructure systems to provide the much-needed 
services?
    And you are right, Mr. Lopez. Agua es vida--water is life 
and so tell me, is there a water task force in Puerto Rico with 
different stakeholders and where is that water task force--how 
is that water task force managed and who are the stakeholders 
in that task force?
    Mr. Lopez. So it is a small group. So we have, again, FEMA. 
We have mission assignments. Our offices--we work with the 
EQB--environmental quality board--and with the territory health 
department.
    So those are the principal actors.
    Mr. Ruiz. OK.
    Mr. Lopez. And just, Congressman, if I may, we are on track 
on a regular basis. We do regular meetings with the island--
conference calls and interdiction of----
    Mr. Ruiz. Great. My proposal is to have field command posts 
with all the different stakeholders to address local issues 
with local mayors and NGOs and the Puerto Rican government, the 
Federal Government, and other agencies working together--pretty 
much what Mr. Coleman talked about that is occurring in other 
locations but have that in Puerto Rico more in the field so 
that you can have better decision making, coordination, and 
responding.
    Your role is to test and monitor and to track changes. But 
then that needs to get translated to actual implementation in a 
much more rapid way so that goods and repairs can be made in a 
transparent and prioritized way on the ground.
    And so that is--my time is up--so that is my--that is my 
recommendation, given my experience and I think that we need to 
move forward in trying to implement some of those.
    Mr. Shimkus. Thank you, Dr. Ruiz. I agree.
    We had a very similar hearing like this on the Energy 
Subcommittee, and the question I asked, well, ``Who's in 
charge?''
    Mr. Ruiz. Yes, and----
    Mr. Shimkus. I would have loved for----
    Mr. Ruiz [continuing]. And right now we heard FEMA, but 
then when I was on the ground FEMA said Puerto Rico----
    Mr. Shimkus. I--I----
    Mr. Ruiz [continuing]. And Puerto Rico says FEMA.
    Mr. Shimkus. I don't disagree, and I wish that the 
administration would have just parachuted 82nd there----
    Mr. Ruiz. I would have loved to have seen that. Absolutely.
    Mr. Shimkus [continuing]. To some of the very small 
villages, and I think we all would have been best served. Then 
we could have worried about who is responsible later. But you 
need to get service there immediately.
    Mr. Lopez. Chairman, if I--just briefly, too. And not last 
but not least, there is a joint field operations center there 
and we do have EPA incident commanders and we have branch 
leaders in Puerto Rico.
    So there is an incident command center there. Those other 
agencies are embedded but----
    Mr. Ruiz. See, when you say that, though, Puerto Rico is 
big, you know, and you leave us with the impression that it is 
somewhere.
    But where exactly, and are they in the different 
municipalities and do we have the right people working in a 
group out in the field in those different municipalities, 
because when I was there they didn't exist.
    FEMA told me they didn't have field command posts. DMAT did 
not have field command posts. I spoke to different agencies 
that did not--they said that this would be a good idea and 
something that they would be very willing to work with and 
actually I am meeting with HHS later today to address this 
concept.
    Mr. Shimkus. Great. Thank you. Thank you very much.
    The Chair now recognizes the gentleman from Texas, Mr. 
Flores, for 5 minutes.
    Mr. Flores. Speaking of HHS, that is going to be my 
question.
    I want to thank the chairman and ranking member for holding 
this hearing. I want to thank the panel for joining us today.
    Under Emergency Support Function Number 8, the Department 
of Health and Human Services, or HHS as it is commonly called 
around here, is the primary agency for ESF Number 8 and 
includes support for potable drinking water, solid waste 
disposal, and other environmental issues related to public 
health.
    I have got a question--this question for Mr. Lopez and Mr. 
Coleman, starting with Mr. Coleman. Number one, have you worked 
with HHS to carry out this function regarding providing potable 
water and also solid waste and debris removal in communities 
affected by hurricane damage this season?
    Mr. Coleman. Yes, sir. We do work with HHS. Specific to 
Hurricane Harvey, as the State and FEMA determined the specific 
Federal assistance that is necessary, in this particular 
response, that role of HHS was somewhat limited because of, A, 
the State capacity was quite extensive and we had done a lot of 
coordination work with them, but embedded with my staff I have 
3 members from the Centers for Disease Control, and they 
coordinate and have reachback capability to both the CDC 
headquarters and HHS in general as any issue comes up, and we 
are able to quickly address those and provide the support as 
requested by the State.
    Mr. Flores. OK. Thank you, Mr. Coleman.
    Mr. Lopez, do you have anything to add regarding ----
    Mr. Lopez. The only thing I would say, again, is that HHS 
is part of the unified command structure so that they are 
immersed in that conversation.
    Our local engagement has been with the Puerto Rico 
Department of Health. So, ultimately, we do have the 
representation of health interests.
    Mr. Flores. OK.
    Mr. Glenn, do you have anything to add?
    Mr. Glenn. No, sir. It's part of that structure and we have 
been working with them.
    Mr. Flores. OK.
    Mr. Shaw, you gave us a breakdown of TCEQ's costs for 
dealing with the hurricane response and you indicated that the 
funds to reimburse you would be coming from FEMA. Has FEMA been 
a good partner in working with the State of Texas and dealing 
with the response and recovery efforts?
    Dr. Shaw. Yes, and there is sort of various aspects of how 
that operates. We have, in the initial public assistance 
reimbursement from FEMA, about $700,000 anticipated for that 
cost and that is the initial travel and what have you, working 
with the initial response.
    We also have a $15 million authorization from FEMA for us 
to work with EPA in dealing with the field operations, which 
includes a lot of our command and control--our assessment and 
location of containers displaced and what have you in the field 
operations.
    So $700,000 for the initial component and $15 million to 
work with EPA on those field operations.
    Mr. Flores. OK. What can be improved upon in terms of that 
process? It sounds to me like it has worked pretty smoothly. Do 
you have any suggestions for improvement?
    Dr. Shaw. It is working well. Communications is the primary 
issue and we have a lot of lessons learned. So yes, I think we 
will learn more but I think the key thing is to point out one 
of the issues, for example, are lessons learned. We work very 
closely with EPA. In this event, we were able to very quickly 
deal with things such as fuel waivers that took weeks in past 
events and took hours in this event, and that allowed us to 
focus on those critical issues, making sure we got water, 
wastewater, and immediate harm issues addressed quickly.
    Mr. Flores. OK. In this process, have you come across 
anything where Congress can help in terms of making statutory 
improvements to the Stafford Act or any other related Federal 
statutes to deal with catastrophes like this?
    Dr. Shaw. There are--there is room for improvement and the 
challenges, quite frankly, Congressman, are going to be those 
tradeoffs because, you know, as you look at--and this is sort 
of outside of my lane--but one example is dealing with the 
repairs on the recovery side of that to homes, for example, and 
I think there's opportunities to be able to get that done much 
more quickly and to do permanent repairs as opposed to 
something that is temporary.
    The reason that I am interested in that is because getting 
those folks back into their homes has such a huge health and 
environmental impact because the longer it takes to get those 
homes repaired the longer you have those health issues 
associated with debris with people that are outside or 
displaced from their housing and then the economics associated 
with all those.
    So there is room for improvement. A lot of those have to do 
with making sure that Congress is making the types of decisions 
about how to improve the efficiency of getting those repairs 
done as well as making sure that they're ensuring that those 
funds are expended properly and you avoid--there is going to be 
foul play involved and that becomes a huge issue as how much 
you balance, making sure you get the funds out there but you 
minimize the money that is fraudulently spent.
    Mr. Flores. OK.
    Thank you for your responses. Again, I thank the panel for 
joining us. I yield back the balance of my time.
    Mr. Shimkus. Gentleman yields back.
    The Chair now recognizes the gentlelady from Colorado, Ms. 
DeGette, for 5 minutes.
    Ms. DeGette. Thank you so much, Mr. Chairman, and thanks to 
the witnesses for coming.
    Mr. Glenn, before Hurricane Irma, you and the other leaders 
in Region 4 increased staffing of the Regional Emergency 
Operations Center, the deployed on-scene coordinators to the 
State emergency operations center, and you provided a Region 4 
liaison to the FEMA Regional Coordination Center. Is that 
right?
    Mr. Glenn. Yes, ma'am.
    Ms. DeGette. And do you--can you estimate how many senior 
leaders were deployed prior to the hurricane's landfall?
    Mr. Glenn. Prior to the landfall, as far as our executive 
leadership I, myself, went down and we had two other senior 
leaders that worked directly for me went to south Florida, and 
then some individuals from headquarters were also down in 
Florida.
    Ms. DeGette. OK. Were you the most senior person down there 
before landfall or was there someone more senior to you?
    Mr. Glenn. Prior to landfall, I was the most senior person 
in the Region 4 down there.
    Ms. DeGette. OK. And, you know, it is like Mr. Coleman was 
saying, there was a lot of coordination with the State and 
local officials down there. Is that right?
    Mr. Glenn. Absolutely. Yes, ma'am.
    Ms. DeGette. So, Mr. Lopez, I want to--I know you didn't 
arrive on the scene until September 28th but I want to ask you 
the same question, if you know.
    Before Hurricane Irma hit Puerto Rico, did the leaders in 
Region 2 increase staffing in the Regional Emergency Operations 
Center?
    Mr. Lopez. So, again, I started actually on October 11th.
    Ms. DeGette. Oh, OK.
    Mr. Lopez. But----
    Ms. DeGette. So do you--do you know what kind of staffing 
was increased?
    Mr. Lopez. I would have to--I would have to get back with 
you for detail.
    Ms. DeGette. OK.
    Mr. Lopez. I have some assessments but I don't want to be 
inappropriate with a response. So I'd be happy to respond.
    Ms. DeGette. OK. And so the questions--you'll probably need 
to get back to me on the staffing, the onsite coordinators, and 
who the senior leaders were who were there prior to landfall.
    The anecdotal evidence that we have is that whereas in 
Region 4 they were all there before it hit, in Region 2 what 
happened was they were all rushed--aside from the people who 
were already embedded there that you testified about before 
that we were already behind the curve because we had to send a 
lot of people in. So if you can get me that information that 
would be really helpful.
    And I want to ask you again--to continue, Mr. Glenn, now, 
on September 12th there were 12 field hazard assessment teams 
conducting facility assessment support at chemical and oil 
storage facilities. Is that right?
    Mr. Glenn. Yes, ma'am.
    Ms. DeGette. Now, Mr. Lopez, do you know how many field 
assessment--field hazard assessment teams were operating in 
Puerto and the U.S. Virgin Islands two days after Irma made 
landfall?
    Mr. Glenn. I can't tell you the number of teams but I can 
tell you that teams were on the ground so----
    Ms. DeGette. You don't--can you get me that answer, please, 
of the number?
    Mr. Lopez. I can get you the number, of course.
    Ms. DeGette. And how about Maria? Same thing?
    Mr. Lopez. I will have to get you the same thing. Again, 
the sites----
    Ms. DeGette. OK.
    Mr. Lopez [continuing]. As I mentioned in my testimony, 
were assessed prior and afterwards. So there have been 
assessments ongoing. But I can't tell you the number.
    Ms. DeGette. Right.
    But, again, you know, in Region 4 they had 12 teams on the 
ground two days after. So what I want to know, and as several 
of my colleagues on both sides of the aisle have said, is 
Puerto Rico is a lot larger physically and more complex because 
of transportation needs and other issues.
    So I am just wondering two days after landfall in Puerto 
Rico and the U.S. Virgin Islands how many teams did we have and 
what were they doing.
    Now, Mr. Lopez, I bet you can't answer this either.
    Mr. Lopez. I will do my best, ma'am.
    Ms. DeGette. Do you know how many teams did Region 2 have 
in making boots on the ground assessments of Superfund sites 
two days afterwards--after Irma?
    Mr. Lopez. As I mentioned, the----
    Ms. DeGette. If you can get me that information, too.
    Mr. Lopez. We will get you the specific numbers.
    Ms. DeGette. Sure.
    Mr. Lopez. But just to be clear, Congresswoman, there was a 
presence----
    Ms. DeGette. Uh-huh.
    Mr. Lopez [continuing]. And folks were on the ground 
assessing before and after.
    Ms. DeGette. I am certainly not trying to imply there was 
no presence.
    Mr. Lopez. I understand. I just don't have the correct 
number.
    Ms. DeGette. But like Mr. Glenn--correct me if I am wrong--
Region 4 had six teams on the ground on September 12th that 
were making boots on the ground assessment of Superfund sites. 
Is that right, Mr. Glenn?
    Mr. Glenn. Yes, ma'am.
    Ms. DeGette. So that is what I am wondering, Mr. Lopez, 
and, frankly, I am a little concerned that you don't know. I 
realize you didn't come in until October. But we need to know 
how robust and how quick the response was and the very fact 
that we are having this hearing, Mr. Chairman, and they can't 
answer any of these questions for Region 2--Region 4 has it 
Johnny-on-the-spot--just goes to the concern that we are all--
that we are all expressing today and if I can get your answers 
maybe----
    Mr. Lopez. Sure.
    Ms. DeGette [continuing]. Maybe my concerns will be 
alleviated. But I fear that they will not.
    Thank you. I yield back.
    Mr. Shimkus. The gentlelady yields back her time and I 
thank her for those questions. It just goes to my point of a 
standard operating procedure and why are regions different when 
there is a disaster heading in a certain area.
    Ms. DeGette. Why is it one thing in one region and another 
thing in another region?
    Mr. Shimkus. Right. So thank you very much.
    The Chair recognizes the gentleman from North Carolina, Mr. 
Hudson, for 5 minutes.
    Mr. Hudson. Thank you, Mr. Chairman, and thank you to all 
the witnesses for being here today.
    Mr. Glenn, I particularly want to say welcome to you. 
Obviously, Region 4 includes my home State of North Carolina. I 
look forward to getting to know you better and working with you 
in the future.
    While the damage in Puerto Rico and the U.S. Virgin Islands 
is significant, Region 4, including Florida, sustained 
substantial damage from Hurricane Irma on the heels of 
rebuilding after the 2016 hurricane season.
    There were several reports after Hurricane Irma of issues 
with drinking water systems and several communities under 
boiled water advisories.
    What is the status, Mr. Glenn, of drinking water systems in 
Region 4? Are there still people without access to safe 
drinking water?
    Mr. Glenn. The information I have is that all drinking 
water systems are operational in Region 4. We are not aware of 
any people served by a system that are without access to 
potable drinking water.
    Mr. Hudson. Great. What about right after the storm? How 
did the drinking systems fare during the hurricane?
    Mr. Glenn. Well, as you know, any time a storm like this 
comes through it has impacts. It has immediate impacts, and so 
almost every municipality that was in the path of the storm did 
experience some type of impact at varying levels.
    The impact you've heard today--physical damage, power 
outages, personnel, chemical supply interruptions, and the 
like--so almost every system was impacted and----
    Mr. Hudson. In terms of water systems--drinking systems?
    Mr. Glenn. Yes, sir. Drinking systems. Correct.
    Mr. Hudson. Well, just on your assessment, are there any 
improvements to the drinking water systems that we could look 
at to help in future situations like this?
    Mr. Glenn. Well, as you know, we operate under the 
permission authority of the Stafford Act and we will continue 
to do so and fulfill whatever authorizations are provided for 
in that act.
    Mr. Hudson. Got you.
    For everybody, the whole panel, in June 2016 the National 
Infrastructure Advisory Councils recommended FEMA consolidate 
Federal emergency response roles and responsibilities for water 
into a single ESF within the annex of the national response 
framework to improve coordination and reduce confusion and 
improve the information sharing and communication.
    The 2016 recommendation repeats an NAIC recommendation from 
2009 that declared DHS should elevate water services to its own 
ESF within the NRF to achieve higher prioritization of water 
systems during emergency response that opens up to at least 
everyone from FEMA.
    And Dr. Shaw, you're welcome to join in too, but do you 
believe making this change is a wise move? I would just ask the 
FEMA regional folks to chime in.
     Mr. Coleman. So with regards to that recommendation, we 
think that, and my personal experience is that, water 
infrastructure is extraordinarily important. It essentially 
sets the basis for when people can repopulate an area.
    So, you know, I think it is very important. I don't have a 
specific opinion on if it should be its own emergency support 
function but I think that working very closely with the State 
Governor's office, et cetera, to make sure that in a response 
you restore service as soon as possible is the most important 
thing.
    Mr. Hudson. So you don't--you don't want to say whether 
making its own ESF would help with that coordination?
    Mr. Coleman. From my personal experience the coordination 
with the Governor's office and the local officials is the most 
important coordination that needs to take place and when that 
takes place you're able to actually get the right equipment, 
infrastructure, or support to bring those systems back online.
    Mr. Hudson. Got you.
    Dr. Shaw, I see you are chomping at the bit. Please.
    Dr. Shaw. And I am going to be supporting what Mr. Coleman 
said as well and that is that I think the key point is in my 
State it may be difficult for me to assess whether that--what 
that need would change because we have such a focus on water 
and wastewater as our initial response in that.
    I am thinking back through the days before, during, and 
after the landfall and I don't--I have not identified the place 
where that would have changed things because we work 
cooperatively and our mission is first and foremost to get out 
and assess those issues that are immediate harm and key among 
those are water and wastewater systems and getting those back 
online.
    We have partners such as with Texas--I always get this 
wrong--the Texas American Waterworks Association--our TXWARN 
system which helps us to bring together different resources 
from different services that are available to get equipment in 
places. Those things are all working very well. And so my only 
concern with changes is making sure we don't lose what's 
working well because it is working well in the State of Texas. 
Obviously, you want it quicker, but those are tweaks as opposed 
to major overhauls.
    Mr. Hudson. Got you.
    I have got a little over 10 seconds. Do either--Lopez or 
Glenn, do you have an alternate opinion?
    Mr. Lopez. Just to reinforce, I was a local official and I 
was also on the ground during Irene and Lee. The issue of 
communication is really the critical issue.
    So whether it is a single function or a coordinated 
function, you really need to be in the heads of the plant 
operators who know exactly what they need and how to get up and 
running. So if you can penetrate to that level quickly, that is 
really what you need.
    Mr. Hudson. Great.
    Mr. Chairman, my time has expired. I will yield back. Thank 
you.
    Mr. Shimkus. The gentleman yields back his time.
    We want to thank this panel. You can tell--we know you've 
travelled far and there is still a lot of work to do and so we 
are very appreciative of your efforts.
    And there are some Members who have asked questions for you 
to respond. If you can do so in a timely manner, that would 
also be appreciated. Thank you for what you do, and now go back 
to your regions and get to work.
    And with that, we will dismiss this panel and ask for the 
second panel to join.
    [Second panel arrives.]
    OK. We want to thank all our witnesses for being here 
today, taking the time to testify before the subcommittee. Our 
second witness panel for today's hearing includes Mr. Mike 
Howe, executive director and secretary treasurer for the Texas 
Section of American Waterworks Association; Mr. Mark 
Lichtenstein, chief of staff, chief sustainability officer, 
State University of New York, College of Environmental Science 
and Forestry; Ms. Lyvia N. Rodriguez del Valle, executive 
director of Corporacion del Proyecto ENLACE del Cano Martin 
Pena; and Mr. Trent Epperson, assistant city manager, 
administration, City of Pearland.
    So you were able to be here for the--obviously, the first 
panel. This will be a smaller group but still as important as 
we get your statements into the record.
    There will be some of us who will be here to ask the 
questions, as you saw in the first panel. We do appreciate you 
being here, and with that we will start with Mr. Howe. You are 
recognized for 5 minutes, and your full statement is submitted 
for the record.
    You are recognized, sir.

  STATEMENTS OF MIKE HOWE, EXECUTIVE DIRECTOR, TEXAS SECTION, 
  AMERICAN WATER WORKS ASSOCIATION; MARK LICHTENSTEIN, CHIEF 
     SUSTAINABILITY OFFICER AND CHIEF OF STAFF, COLLEGE OF 
  ENVIRONMENTAL SCIENCE AND FORESTRY, STATE UNIVERSITY OF NEW 
    YORK; LYVIA N. RODRIGUEZ DEL VALLE, EXECUTIVE DIRECTOR, 
CORPORACION DEL PROYECTO ENLACE DEL CANO MARTIN PENA; AND TRENT 
   EPPERSON, ASSISTANT CITY MANAGER, CITY OF PEARLAND, TEXAS

                     STATEMENT OF MIKE HOWE

    Mr. Howe. Thank you much and good afternoon, Chairman 
Shimkus and members of the subcommittee.
    My name is Mike Howe, the executive director of the Texas 
Section AWWA and we manage the Texas Water/Wastewater Agency 
Response Network, or TXWARN.
    The mission of TXWARN is to provide emergency preparedness 
disaster response and mutual aid assistance for water and 
wastewater utilities. TXWARN began after Hurricane Katrina when 
it was apparent that the coordination and prioritization of 
water utility needs was disjointed under the existing national 
response framework.
    We in the water sector realized that we needed to develop a 
utility-to-utility mutual aid system. AWWA spearheaded the WARN 
initiative and collaborated with other stakeholders to 
facilitate the growth of WARN from the two-State program in 
2006 to the 50 programs we have nationwide today.
    Membership in TXWARN is free and is available to all public 
and private utilities in Texas, making it the largest utility-
to-utility mutual aid program in the country with more than 
1,200 utility members that provide services to 78 percent of 
the population of the State of Texas.
    The Texas Section AWWA manages TXWARN and receives partial 
funding from the TCEQ via the State revolving fund program to 
facilitate training and exercises.
    Hurricane Harvey made landfall as a Category 4 hurricane in 
Nueces and Aransas Counties on August 25th and, as you know, 
meandered to the northeast over the upper Texas coast for four 
days.
    It presented water utilities with unique challenges. As the 
storm approached, we activated the TXWARN system on October--
August 23rd. We first began preparing support teams for the 
inevitable aid requests.
    Ground zero for Hurricane Harvey was the small coastal town 
of Port Aransas. At daylight after the storm the local water 
utility manager assessed the damage to the community and the 
water system.
    The power was out for the water pumps, one of the water 
supply lines from Corpus Christi was out of service, and the 
majority of the community's water systems were leaking.
    As Harvey crossed Aransas Bay, it brought significant 
similar damage to Rockport's water and wastewater system. The 
first major request for TXWARN came early Sunday morning on 
behalf of Port Aransas. The water system had to be operational 
before authorities could bring the population back.
    TXWARN contacted the San Antonio Water System, or SAWS, a 
little more than 2 hours away from Port Aransas and its 
management agreed to send equipment and manpower to Port 
Aransas. In less than 24 hours, SAWS had deployed 20 field 
staff and by Friday of that week they had completely restored 
service.
    SAWS also responded to Rockport, performing repairs to it 
water and wastewater systems. TXWARN arranged to relief SAWS 
crews after 10 days from this grueling work with crews from the 
Austin water utility.
    During the nearly two-week response period TXWARN was fully 
activated, we managed more than 50 similar requests for large 
and small systems. We are very pleased with our response 
operations during Harvey but there is always room for 
improvement.
    Specifically, I would like to call your attention to how 
the needs of the water sector are prioritized and coordinated 
as part of the national response framework, or NRF.
    The current organizational structure of the NRF largely 
reflects the 1992 Federal response plan prepared by FEMA. That 
was 25 years ago. The experiences of the water sector since 
then suggest that this current model requires a thorough review 
and update.
    The loss of drinking water and wastewater services 
compounds the complexities of all response activities and 
impacts the ability of first responders to sustain shelters, 
hospitals, and other first responding units.
    Therefore, prioritizing the recovery of water and 
wastewater service is essential to bringing normalcy and 
commerce back to any community.
    The disaggregated approach under the national response 
framework means that no single entity at the Federal level has 
total responsibility for the water mission. This is our issue, 
and others at the Federal level has also recognized this.
    In 2009, the National Infrastructure Advisory Council 
recommended the Department of Homeland Security elevate water 
services to its own ESF category within the national response 
framework.
    Seven years later, the NAIC recommended that DHS direct 
FEMA to consolidate Federal emergency response roles and 
responsibility into a single ESF.
    Implementing these recommendations will be consistent with 
the approaches applied for similar critical infrastructure such 
as transportation, communications, and energy.
    We urge Congress with its oversight jurisdiction and 
responsibilities to direct FEMA to reconsider how the NRF is 
used to support disaster response and recovery. This is vital 
for protecting public health, the environment, and all the 
communities we serve.
    And thank you very much.
    [The prepared statement of Mr. Howe follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you, sir.
    And now I would like to recognize Mr. Mark Lichtenstein 
from the State University of New York. You are recognized for 5 
minutes.

                 STATEMENT OF MARK LICHTENSTEIN

    Mr. Lichtenstein. You pronounce my name better than I do. 
Thank you.
    Chair Shimkus, Chair Walden, Ranking Members Tonko and 
Pallone, and honorable subcommittee members, thank you for the 
opportunity to participate.
    Having just returned from Puerto Rico and the Virgin 
Islands, I have many observations and concerns. But today I am 
only going to focus on disaster debris.
    I have more than three decades of waste management 
experience including with disasters. I am employed by the State 
University of New York College of Environmental Science and 
Forestry--ESF--in Syracuse. It is a different ESF than we have 
been talking about.
    As immediate past president of the National Recycling 
Coalition, I helped create a task force on sustainable disaster 
debris management immediately after Harvey.
    I have helped address issues in the island since 2009, 
working with colleagues like my partners to the left, and I am 
a member of the board for Island Green, a U.S. Virgin Islands 
nonprofit.
    I have been working with local people to devise a 
sustainable approach for the storm debris. Some U.S. Government 
responders are appreciated.
    However, there is concern from some residents and other 
experts regarding the potential ecological and human health 
impacts of a disaster debris management method of choice of the 
Army Corps of Engineers--air curtain incineration.
    ACI is a past practice of FEMA and the Corps in these 
situations and they have proposed it for the Virgin Islands and 
possibly Puerto Rico as well.
    This would add insult to injury, especially considering 
that much of the debris is clean vegetation. There are better 
ways.
    During Superstorm Sandy in New York City, the Corps planned 
to use ACIs continuously for four months but they stopped after 
one month because they could not get them to function properly.
    Air quality was exceeded during days of high humidity and 
this was November in New York City. Humidity is routinely 
extremely high on the islands. Local people and others are 
concerned that ACIs will emit pollutants that could cause 
pulmonary aggravation, particularly for individuals with asthma 
or cardiac diseases.
    Diesel and gasoline generators, which you have heard about 
already today, and exposure to indoor mold are already 
aggravating existing respiratory conditions.
    If burning moves forward in any manner, appropriate 
agencies should be asked to address potential health issues, 
especially regarding existing conditions. The agency for toxic 
substances and disease registries should be requested to do a 
review of the health impacts of burning before it commences. 
EPA should be asked to establish air monitors downwind of the 
burners and burning should not commence until monitors are 
established and EPA immediately shares results with the public.
    Much of the topsoil has been lost through storm water. They 
have been hammered with rain since the hurricanes. So it is 
critical that the vegetative debris remain to help replenish 
the soil that the plants of the islands need.
    When considering options like burning, it is essential to 
incorporate externality costs--costs for which it is hard to 
calculate an immediate number like climate change, the impacts 
of depleted soils on the ecosystem, or health effects of air 
pollution.
    These impacts can be reduced through other viable options 
and this is one reason groups like the National Recycling 
Coalition have opposed ACIs.
    FEMA and the Corps have said they will take the Governor's 
lead. Many in the Virgin Islands have asked their Governor to 
oppose incineration. Experts from Puerto Rico, the Virgin 
Islands, and stateside have worked to develop a viable 
alternative including recovery of hardwood and then mulching 
and composting. This all could be done safely and efficiently.
    Composting is a process that nature has perfected over 
millions of years. It has been successful in many locations at 
large scales and with other disasters like Superstorm Sandy.
    Puerto Rico officials are working towards a similar 
sustainable plan. Providing a valid option to incineration can 
serve as a positive framework for other disaster-impacted areas 
in the future and that is key, and it represents a new 
sustainable scheme for debris and waste on the islands, going 
forward.
    This is a once and done opportunity to get a leg up on 
acquiring the infrastructure needed for management of the 
island's long-term organic waste problem, which is about 50 
percent of the island's normal waste stream. This gets to the 
questions about landfills earlier.
    To help this sustainable option move forward, assistance 
could come in the form of a waiver of the matching funds 
requirement for the next 18 months while the islands build 
towards this more resilient and future-focused infrastructure.
    Right now, FEMA is requiring the debris management solution 
to be fully implemented in 180 days and this is considered 
unrealistic for composting or burning.
    The residents and visitors of Puerto Rico and the Virgin 
Islands deserve our focused attention. They deserve clean air 
and a healthy ecosystem.
    The hurricanes were certainly not desired, but this is a 
great opportunity to build a more resilient and sustainable 
future so that the islands can come back better than before.
    Thank you on behalf of my institution, ESF, and SUNY, and 
we stand ready to assist the subcommittee as it continues its 
work.
    [The prepared statement of Mr. Lichtenstein follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much.
    Next, we would like to turn to--I don't know if it is 
Senora or Senorita. Senora? Rodriguez del Valle.
    You are recognized for 5 minutes.

           STATEMENT OF LYVIA N. RODRIGUEZ DEL VALLE

    Ms. Rodriguez. A disaster within a disaster--that is what 
the eight densely populated communities on the Cano Martin Pena 
and others that were already under environmental distress prior 
to Irma and Maria have been experiencing since the hurricane 
struck.
    The 25,000 U.S. citizens living on the eastern half of the 
Martin Pena tidal channel already feared rain. They knew about 
flooding. An average of twice a year heavy rainfall translated 
into severe floods with wastewater.
    Accounts of raw sewage coming out of the shower and toilets 
or of waking up in the middle of the night to a wet bed and 
water to your knees and waste were common.
    They knew having to dry a wet mattress in the sun to have 
somewhere to lay down to sleep at night. They also knew 
disease. The prevalence of gastrointestinal disease in the Cano 
was of 31 percent in three months, compared to 20 percent in a 
full year for Puerto Rico.
    Forty-four percent of the children 5 years of age and under 
living close to the Cano had asthma. People had experienced the 
dengue fever, zika, and chikungunya epidemics. There have been 
reports of leptospirosis, a disease transmitted mainly by 
contact with the urine of rats and other animals and which can 
be fatal.
    The Martin Pena channel stretches for 3.7 miles across San 
Juan, connecting San Juan Bay, where Puerto Rico's busiest port 
is, to the inland San Jose Lagoon to the east, vital for the 
stormwater management of the adjacent Luis Munoz Marin 
International Airport. It is part of the San Juan Bay, 
recognized by the EPA for its national significance.
    From a 200- to 400-feet wide navigable channel, today it is 
barely five feet wide in some areas. Adjacent communities lack 
sewer systems and the stormwater system has collapsed. The San 
Jose Lagoon has lost superficial area and depth, increasing the 
risk of floods at the airport and other communities throughout 
San Juan.
    If historic--if history were to repeat itself, almost a 
century ago after two major hurricanes and in the midst of an 
economic depression, persons migrated to San Juan and the 
wetlands around the Cano became home.
    Prior to Maria, the barrios which survived decades of 
eviction and gentrification were already a symbol of 
resiliency, empowerment, and grass roots organization.
    Residents engaged in an unprecedented participatory 
planning process that led to the creation of the comprehensive 
development ENLACE Cano Martin Pena project. Since then, 
together with the public and private sectors, they moved 
forward an agenda of long-term resiliency that has the 
potential of transforming the city by reconnecting its 
navigable bodies of water.
    Recovering the Cano with participation means healthier and 
safer conditions for the residents without fear of 
gentrification thanks to a community land trust recognized last 
year with the United Nations World Habitat Award.
    And then Irma and Maria struck. Close to 1,000 families 
lost totally or partially the roofs to their homes. 
Approximately 75 homes were totally destroyed. The communities 
experienced another severe flood with raw sewage, only that 
this time around it lasted for four days.
    Approximately half of the trees along the Cano fell and 
together with the debris from the destroyed houses further 
blocked the Cano and the storm sewers.
    Since Maria, it only takes 15 minutes of rain for floods to 
start. It even floods on a sunny day. We already have had two 
significant floods in the past two months, which have been 
affecting other areas of San Juan as well.
    Since Maria, water quality throughout the estuary has 
significantly worsened. The disturbance of the Cano and 
uncollected debris from streets caused a rat infestation and 
augmented the risk of mosquito-borne diseases. Alligators are 
approaching people's homes. Tarps and Corps-installed blue 
roofs are already in place. However, there is mold and water 
filtration.
    Fifteen years of organizing allowed for ENLACE, the 
grassroots G-8, and the land trust to work with partners and 
bring aid. However, the crisis is far from over.
    Now, imagine living in a state of never-ending crisis and 
trauma--whole families sleeping on the floor on the room that 
does not get wet after sleeping under the rain for many days in 
the capital city of Puerto Rico, San Juan.
    Using Federal recovery funds to support initiatives like 
the ENLACE Cano Martin Pena project presents a unique 
opportunity for an emblematic recovery process that increases 
Puerto Rico's long-term resiliency and sound economic 
development.
    Investing in the ecosystem restoration of the Cano 
infrastructure and related acquisitions and relocation supports 
equitable development and participatory democracy.
    There is already a credible and proven institutional and 
policy framework in place and engaged community and partners, 
shovel-ready projects and NEPA compliance for the ecosystem 
restoration piece elaborated under the Water Resources 
Development Act of 2007.
    Due to the current crisis, the Cano cannot keep waiting for 
ordinary processes to occur. At a time of severe political, 
economic, fiscal, and financial challenges, support from the 
U.S. Federal Government is crucial.
    That is why I urge Congress to pursue the inclusion of this 
project and all of its components in any upcoming disaster 
recovery bill for Puerto Rico.
    This project is necessary and should be a priority due to 
serious repercussions in the San Juan Bay Estuary, public 
health, and safety.
    And finally, I want to stress the importance of ensuring 
that any funding related to Martin Pena or other communities in 
a similar situation promote on-site resilient recovery rather 
than displacement and gentrification and for assistance 
policies to be context sensitive to allow for a just and 
equitable disaster recovery.
    We are concerned that FEMA individual assistance programs 
requiring families in need for housing to leave outside the 
flood plain can make families in desperate need to leave their 
communities.
    When this happens in areas where resilient onsite 
alternatives are visible and that have been under pressure of 
displacement and gentrification due to their strategic 
location, those who have struggled for their lands for decades 
can end up being uprooted.
    No person should leave fearing the rain and no community 
should be displaced when there is an alternative at hand. With 
your support, long-term solutions that also keep Puerto Rico 
face--help Puerto Rico face its economic crisis such as this 
project will become a reality.
    An official visit to Puerto Rico I do invite you to come 
and visit the work we've done. Thank you.
    [The prepared statement of Ms. Rodriguez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much.
    Now I would like to turn to Mr. Epperson. You are 
recognized for 5 minutes.

                  STATEMENT OF TRENT EPPERSON

    Mr. Epperson. Good afternoon, Chairman, and members of the 
subcommittee.
    My name is Trent Epperson. I am the assistant city manager 
with the City of Pearland in Texas and I am pleased to be 
invited here today to present to you the effects of Hurricane 
Harvey as it occurred in the City of Pearland, especially as it 
relates to critical water and wastewater infrastructure and the 
need to make that infrastructure resilient and redundant.
    The City of Pearland is a suburban city of about 120,000 
residents just south of the City of Houston. It has been one of 
the fastest growing communities in the Nation over the past 15 
years.
    We have grown from a population of about a little over 
30,000 in the year 2000 to today over 120,000 to where we are 
the third largest city in the Houston metro area.
    During Hurricane Harvey, with its unprecedented flooding, 
Pearland experienced structural flooding affecting over 1,700 
residents, 50 businesses, and flooding to critical 
infrastructure including two wastewater treatment plants.
    Most of the flooding occurred along Clear Creek, which, 
germane to this subcommittee is a 303D-listed impaired water 
body for bacteria. With a 500-year storm event, it is--it was 
estimated before this storm that about 7,000 residents in the 
Clear Creek watershed would flood. I believe we saw that or 
more in Pearland and the downstream communities.
    There is, however, a U.S. Army Corps of Engineers drainage 
project that has been on the books since the '60s but yet to be 
funded.
    Based on the studies associated with that project, 
approximately half of those residents that flooded in the 
watershed would likely have been spared during Hurricane 
Harvey.
    Additionally, critical infrastructure within the watershed 
would not have flooded and failed as well. Although the City of 
Pearland has grown rapidly, our new development and our new 
infrastructure follows current codes and standards.
    The result was that in those newer areas we experienced 
very minimal flooding and that is in areas where we have added 
tens of thousands of new rooftops over the past 15 years.
    So we see that along with the completion of the Clear Creek 
drainage project what is needed is funding for continued sound 
investment and resilient and redundant critical infrastructure, 
especially to bring the older infrastructure to current 
standards.
    The most critical of those infrastructure pieces are water, 
wastewater, and the automated systems that control that 
infrastructure. It is a critical life safety issue for any city 
to have the ability to deliver clean safe drinking water during 
a disaster.
    For Pearland, this critical infrastructure must have 
adequate generator power, flood proofing, and adequate 
elevation to survive a minimum of a 500-year storm as well as 
able to withstand Category 4 hurricane winds.
    During Hurricane Harvey, our water system performed very 
well with only one water well sustaining minor damage due to 
power surging. We never lost pressure and we were always able 
to deliver that clean safe drinking water.
    Unfortunately, some of our adjoining communities and the 
smaller water systems around us were unable to do that and did 
have to issue boil water notices.
    Additionally, continuity of service in treating wastewater 
is critical for citizens sheltering in place and the return of 
evacuees when they return--when they come back to their homes.
    We must ensure that wastewater is adequately treated and 
not released during a flooding event because that can affect 
the downstream water quality in our streams and bayous.
    In our area, wastewater facilities are often located in 
low-lying areas near the stream that they outfall to, making 
them vulnerable to flooding, and therefore a lot of them are in 
need of the same resiliency and redundancy criteria applied to 
our drinking water facilities.
    During Harvey, unfortunately our wastewater system did not 
fare near as well as our wastewater system. Our Longwood 
wastewater treatment plant, which was originally built in the 
1960s and is sited in one of the old oxbows of Clear Creek, was 
inundated with flood waters and inoperable for up to 72 hours 
during the event. The estimated damage to the plant is about a 
million and a half dollars.
    But due to the proximity of the plant to the creek, instead 
of making those expensive repairs on a plant that is vulnerable 
to the next flood, this facility should have its flows 
redirected to an adequate plant to mitigate any future damage 
or loss of service.
    One final critical piece of infrastructure to our utility 
operations is the Supervisory Control and Data Acquisition 
System, or SCADA.
    What SCADA is is it is basically a system that allows us to 
monitor and control our critical water and wastewater 
facilities remotely.
    These systems must be redundant and resilient to provide 
continuous connectivity to those facilities throughout an 
emergency event.
    SCADA is indispensable to ensure the plants and the lift 
stations are operational and properly functioning when we 
cannot reach those facilities due to high water or debris.
    During Hurricane Harvey, for three days we could not 
physically access 18 wastewater lift stations which are 
critical to getting the wastewater to the plants. Due to a lack 
of SCADA redundancy, we were also unable to monitor many of 
these facilities remotely.
    The City of Pearland, although challenged, fared relatively 
well through Hurricane Harvey and will recover stronger than we 
were before the disaster.
     As we rebuild, we look to ensure our critical 
infrastructure is able to withstand flooding, high winds, and 
other potential disasters.
    To do this, we must have adequate recovery and mitigation 
funding available so that we do not just rebuild our critical 
infrastructure to its original state, but we rebuild resilient, 
redundant infrastructure ready for the next disaster.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Epperson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much. I appreciate the opening 
statements. I want to start by then recognizing myself for 5 
minutes for a round of questioning.
    And I have some here prepared in front of me but I really 
want to go off script a little bit, and if you would hit the 
time, too, Jerry.
    The--you sat in on our--the first panel, which was long 
with a lot of extensive questioning and I think there was a 
consensus by my colleagues on both sides that maybe we are just 
not organized right and I think it addresses all three of your 
kind of positions because, one, it deals with, you know, the 
debris management issue, who makes the decision and for what 
purposes.
    Obviously, the estuary and the river systems, but we also 
want to make sure that if we go in this direction how do we 
not--it was mentioned in the first panel--how do we not stumble 
on them having a centralized government get involved in things 
that are working, right.
    So let me--let me go and turn to each one of you and, Mr. 
Howe, my questions were going to be--going to be totally 
directed to you but I really would like everyone's response 
because this is kind of similar to the energy hearing where in 
some places there is mutual agreements and when you have States 
or local service areas you can coordinate and you can send 
folks to. Obviously, islands much more difficult, as we saw 
with the Energy Subcommittee.
    So what would be a structure by which--I think your 
testimony was there are things that are working--be careful not 
to screw those up if there was a change in the--in essence, a 
change of the Stafford Act in some delineation of 
responsibility.
    Mr. Howe. In speaking to what I spoke in my remarks on the 
written testimony, also the issue of the multiple ESFs that 
water is under.
    Now, for lack of a better term, under the WARN program 
across the country we have done a workaround. The WARN programs 
are utilities supporting utilities and most of those programs 
are operated independently of the State regulatory agency or 
the State operation center, even though, as you saw from Mr. 
Shaw earlier, we cooperate with them directly.
    We are partially funded and we are unique to this, by the 
way. The Texas--the TXWARN program is partially funded by the 
TCEQ. So we work very closely with them and the State 
operations center.
    But we have identified an issue that occurs in the State 
operations center because they are broadly looking at public 
works and the totality of it--that even though we are in touch 
with them and coordinating with them, they are not necessarily 
always paying full attention to the water/wastewater side.
    So during Harvey we had situations where we would loop back 
to them and have conversations and we would have to go through 
a complete refresh----
    Mr. Shimkus. I wonder if I can jump in so I----
    Mr. Howe. Yes, please.
    Mr. Shimkus. So your position is that, and I am learning 
these acronyms as we go through the hearing, it should be 
raised to an emergency support function level and that would 
help?
    Mr. Howe. In other words, it is disaggregated now. If it 
was under one, then I think, as I've said to somebody before, 
that then those in emergency management would have the same red 
light flashing on water/wastewater as they do on lifesaving and 
everything else that they do because it would be a single 
support function and we know from the industry that there are--
you know, we have only talked about three essential services--
police, fire, and EMS. But without electric, water, and 
wastewater the first three can't function.
    Mr. Shimkus. OK. Let me go to Mr. Lichtenstein.
    Mr. Lichtenstein. It is a dichotomous thing. I drove all 
around the islands--Saint John, Saint Thomas, Puerto Rico, 
Vieques. So need for plans ahead of time, clearly.
    Standard operating procedures--we talked about those 
earlier. But this is definitely a matrix thing. Can't be top 
down. It is not linear but yet there is a critical role for the 
U.S. Government. What I saw, this dichotomous thing, was some 
unbelievable local efforts of stepping up to the plate. On the 
island of Vieques, and I don't know if you're familiar with 
that island but that is an island on the----
    Mr. Shimkus. We used to debate it a long--couple years ago 
all the time.
    Mr. Lichtenstein. Yes. So here's a story about initiative. 
The U.S. Coast Guard, while Maria was still kind of hanging 
out, the captain there used initiative and sent some cutters 
over to Vieques before anybody else was there for days.
    So how do you--how do you value that and how do you enhance 
that kind of activity to help the locals? Clarity of leadership 
is key.
    Mr. Shimkus. Right.
    Mr. Lichtenstein. What I saw was lack of clarity of 
leadership. So this is matrixed and it is something that we are 
going to have to figure out how to structure and how do you 
value these local people that are just stepping up to the 
plate?
    Mr. Shimkus. And speaking of local people, Ms. Rodriguez 
del Valle?
    Ms. Rodriguez. Yes. I have to totally agree with Mark 
Lichtenstein's remarks. In our case being a community in San 
Juan basically the after--right after Maria it was the 
residents the ones that took care of themselves and the 
institutions that have been working with them for a very long 
time came in the next day and that was the only outside help 
that they received in practically a month and this was San Juan 
with a lot of partners--previously built partnerships.
    So the other thing that is helpful is for the--in the case 
of the Federal Government it was very critical for us to have 
people on the ground that actually were able to listen, because 
sometimes you design a program that you think is going to work 
very well everywhere and not necessarily all the circumstances 
are the same.
    So we were able to establish those relationships and 
improve dramatically the type of help that was being brought to 
the communities, particularly with the project of the blue 
roofs and other assistance that we finally got from FEMA and 
the Federal Government.
    Mr. Shimkus. Thank you.
    And let me, with my colleagues' permission so I can get Mr. 
Epperson on the record, Texas, local community--how do we be 
careful that we are not part of the problem and, you know, we 
are from the Federal Government--we are here to help, and then 
we end up not being helpful?
    Mr. Epperson. Thank you, Mr. Chairman.
    It is a very local response and effort from the beginning, 
and with the experience of Hurricane Harvey we really could not 
get out, could not get in for several days where we are 
located.
    We did--we did--we do have other local government contacts 
throughout Texas that were able to send high water rescue 
vehicles that were able to help out.
    So I think that initial response it is very local and how 
you have to deal with that, and then once the flood waters 
recede and we start talking about projects to--the enhancement 
projects and projects to make sure that the next time we have 
the high wind event or the high water event, I believe that is 
where we can partner with FEMA and the Federal Government and 
the other agencies.
    Mr. Shimkus. Thank you very much, and I appreciate my 
colleagues allowing me to go a few minutes over.
    Now I would like to turn to Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Ms. Rodriguez del Valle, where water systems are now 
working in Puerto Rico are there still concerns with water 
safety?
    Ms. Rodriguez. Yes. Yes, and the people are being told to 
boil the water before consumption. But when you have no power 
at home, you know, and the gas is limited it is very hard to 
comply with those basic health measures.
    Mr. Tonko. I have heard that there are over 200 independent 
water systems on Puerto Rico but they serve a very small 
percentage of the population.
    Can you characterize the types of communities or people 
served by independent non-PRASA water systems?
    Ms. Rodriguez. Well, I am not an expert in this. But from 
my knowledge, these are areas particularly in the mountain side 
of Puerto Rico where it was very difficult to provide formal 
services.
    So the families did community aqueduct systems decades ago 
and they have been living on those for a long time.
    Mr. Tonko. Thank you.
    And Mr. Epperson, your testimony mentioned that you need to 
make $1.5 million worth in repairs to your water--your 
wastewater treatment plant. How important is it to protect your 
community's investment by making sure that that facility is 
more resilient to future flooding?
    Mr. Epperson. I think it is very important, you know, that 
we do have the plant up and running with temporary repairs.
    Those are the more permanent repairs and--but because of 
the location of that plant we really are going to look at an 
enhancement type project with that--with that plant to send 
those wastewater flows to one of our other plants, expand that 
plant, because it is situated and located in a location less 
vulnerable to the rising waters that we experienced at this 
plant.
    Mr. Tonko. And are there currently sufficient Federal 
funding opportunities to help the communities assess and 
mitigate future vulnerabilities to their water supplies or 
water systems?
    Mr. Epperson. I believe there are opportunities. I am not 
certain that they are sufficient. You know, we are exploring 
what those opportunities are right now and moving through that 
process.
    Mr. Tonko. Thank you.
    And Mr. Howe, I am interested in how FEMA can improve its 
emergency support functions for the water sector. How does it 
compare to other critical infrastructure sectors?
    Mr. Howe. I think the difficulty we have is because it is 
spread out over multiple ESFs there is not a nationwide or 
entirety of a single operating system so it can vary from 
region to region, area to area.
    As I mentioned, we were--we were successful in Texas 
because we've almost--we have made it happen that way. But it 
is not--it is not consistent. So there needs to be a consistent 
structure of how that works and we believe under a separate ESF 
that would happen.
    Mr. Tonko. Thank you.
    And Mr. Lichtenstein, what types of pollution occur--can 
occur from burning debris?
    Mr. Lichtenstein. Clearly, particulates or smoke. But that 
is the question that we want to answer--what else is happening.
    So if it is a lower temperature burn there--and if 
plastic--I saw plastic tangled up with the debris and if that 
is burned it can potentially have dioxins, furans, polyaromatic 
hydrocarbons and other chemicals. But that really needs to be 
looked at.
    Mr. Tonko. Thank you.
    And I imagine that space is at a premium in areas like 
Puerto Rico and the U.S. Virgin Islands. What is the current 
state of the landfills there and what particular challenges 
exist because of the land challenge itself?
    Mr. Epperson. Yes. I can't speak with authority to the 
landfills but I do have some knowledge. Some of them are really 
exceeding capacity and exceeding Federal regulations. Others 
are well run and doing fine.
    The main island of Puerto Rico, of course, has more land 
than the other islands. In the Virgin Islands there are serious 
issues.
    There are only two landfills--one on Saint Croix and one on 
Saint Thomas. Both have capacity issues and operational issues. 
So that is a big concern on those islands.
    Mr. Tonko. Thank you.
    And Ms. Rodriguez del Valle, if you had one recommendation 
to this subcommittee or to the committee in general, what would 
it be in regard to what you see right now in Puerto Rico?
    Ms. Rodriguez. I think disasters kind of bring out the best 
of the--of the society and also the institutional flaws, and we 
are seeing a little bit of that currently in Puerto Rico, not 
only regarding the way in which we have been able to address 
the crisis.
    It has brought the best of the Puerto Rican people and its 
capacity to organize and do a great job when nobody else was 
doing it. But it has also brought to light issues regarding the 
way in which disaster relief was organized, particularly during 
the first days.
    It seemed to many of us living there that there was a lot 
of disorganization and some of the decisions actually delayed 
assistance to the people who needed it the most.
    I also wanted to add one point regarding Mr. Shimkus' 
question, and it has to do with Federal Government aid. 
Actually, being able to be culturally sensitive is something as 
simple as having FEMA officers visiting people's homes to speak 
Spanish because most people in Puerto Rico do not understand 
English, and sometimes decisions were being done regarding the 
type of aids that these families received with a language 
barrier in the middle.
    So perhaps that curtailed the ability of many of them to be 
able to actually get the help they needed.
    Mr. Tonko. Thank you very much.
    And with that, I yield back, Mr. Chair.
    Mr. Shimkus. The Chair thanks the gentleman.
    The Chair recognizes the gentleman from Texas, Mr. Olson, 
for 5 minutes.
    Mr. Olson. I thank the Chair.
    I am going to open with the praise and Texas brag about a 
friend and leader back home in Texas 22, Trent Epperson. And 
Trent, I should give you a proper Aggie greeting--howdy, my 
friend. Welcome.
    Trent is the assistant city manager of Pearland, Texas, as 
he mentioned. Pearland is the largest city in Brazoria County, 
with over 120,000 people and growing, rapidly.
    Trent helps to run their half a billion-dollar capital 
budget as well as overseeing both the city's public works and 
utilities department.
    Chair, we are so proud of Pearland and Brazoria County's 
response to Hurricane Harvey. Please tell the committee how 
many people died in Brazoria County because of Hurricane 
Harvey.
    Mr. Epperson. There were no people that died in Brazoria 
County during Hurricane Harvey.
    Mr. Olson. Zero. Nada. Nil. No deaths. That's amazing, 
despite 5 feet of rain in parts of Brazoria County. Is that 
correct?
    Mr. Epperson. Yes, sir.
    Mr. Olson. OK. Now the fun stuff: the questions.
    What kind of help did you get immediately after Harvey hit 
outside of Brazoria County from the Federal Government, from 
the EPA, maybe from FEMA, from other States, other entities?
    What would you change about the storm response lines of 
communication now to the next storm that is coming? We know it 
is coming.
    Mr. Epperson. As far--as far as immediate help, I think it 
was mostly locals that were able to do the--all of the 
immediate response needs.
    We have been working with FEMA, meeting with them on a 
weekly basis since then. I believe that process for the 
immediate needs and the debris removal and developing our 
damage assessments is moving forward.
    One of the areas where I think that moving forward we want 
to improve--as well as working with the feds--is a buy-out 
program, where it has in the past been kind of sporadic when 
there is a disaster.
    We move forward with a buy-out program. It occurs several 
months to maybe more than a year after the actual event itself. 
And so we see a need for accelerating that. There are people 
that are out of their homes right now and don't know whether to 
repair those homes and make those repairs because they don't 
know whether there is a buyout opportunity or not.
    So I think the ability to accelerate that and have that as 
an ongoing program even when there is not a disaster that just 
occurred would really help from a local's perspective.
    Mr. Olson. Anything else you wish from Washington--what we 
could do better to help you guys get through that? Because you 
guys were awesome but we can help you I think a lot more, much 
more--much quicker.
    I mean, it just seemed like over and over people calling me 
up, I can't get somebody to come out to my house to, you know, 
look at my house and assess the damage.
    For example, Pearland had five large--four large dump 
trucks go in that heavy water. Three are flooded out. You are 
down to one dump truck. And so I guess, you know, we are trying 
to get resources to you.
    Anything we can improve on here in DC? Because you all do 
great but we want you to do better. We can help, I think.
    Mr. Epperson. Yes, sir. I think any of those resources 
would help.
    Mr. Olson. The previous panel, Trent, talked about planning 
scenarios with TCEQ and EPA. Has Pearland been involved in any 
of those? Just--have you been involved at that level planning 
for another hurricane like Harvey? Have you been involved in 
that or are you sort of outside looking in?
    Mr. Epperson. We work, you know, with our local county 
emergency management as well as with the Texas Department of 
Emergency Management. But we haven't had any direct contact or 
work with those folks prepreparing for emergency.
    Mr. Olson. Have you had to adjust your plans for an 800-
year flood as opposed to a 500-year flood or a 100-year flood? 
I mean, how much have you adapted to what happened in August 
with Hurricane Harvey?
    Mr. Epperson. I think the big thing we have recognized is 
that our newer infrastructure designed to current standards 
fared very well even with the unprecedented flooding and that 
it is our areas that have been there for many decades that were 
designed to other standards or before standards were in place 
that were mostly affected and that those are the areas we want 
to concentrate on for future drainage improvement projects, as 
well as other resiliency projects, to make sure that those 
areas also are able to withstand the same type of flooding.
    Of greatest importance to that is the Clear Creek project, 
which is a project sponsored by the Harris County Flood Control 
District, and I believe that project has been submitted for 
Federal funding to move forward after this event.
    Mr. Olson. I am out of time, and I want to say, ``Gig 
'em,'' my friend. Thank you.
    Mr. Epperson. Gig 'em.
    Mr. Shimkus. The chairman now turns to another Texan, Mr. 
Green, for 5 minutes.
    Mr. Green. Well, I appreciate it, and I married into the 
Aggie family. My son and our son-in-law and my two 
grandchildren now think they are going to be in the Corps 
Cadets.
    But be that as it may, Mr. Howe, in your testimony you know 
that some of the City of Houston's wastewater operations were 
overwhelmed during Harvey.
    Can you describe in detail on what locations? Was it mainly 
upstream, Buffalo Bayou? Because every creek and bayou I have 
in my area in east Harris County were out of their banks. But 
it was mostly the City of Houston and Buffalo Bayou that the 
wastewater treatment plants were overwhelmed?
    Mr. Howe. Yes, sir. It is my understanding on the west side 
of Houston the wastewater plant was flooded out. Part of that 
was due to controlled flooding out of the Addicks Reservoir, as 
you are familiar with that area over there. They currently----
    Mr. Green. I don't represent it, but I am familiar with it.
    Mr. Howe. Yes, I understand from the City of Houston water 
utility they are currently dealing with a wastewater line that 
is in Buffalo Bayou where the bayou is sloughing off 
continually.
    They have a wastewater line that is on the side of that. It 
is an ongoing issue. Obviously, there needs to be a coordinated 
response on how that gets rebuilt and how their line gets 
reinforced or moved.
    So it is these ongoing issues. The water system operated 
just fine. They were able to put coffer dams around the 
northeast water filter galleries to keep the water system 
operating fine but wastewater, by its very nature, as Mr. 
Epperson mentioned, are built in lower level areas and they had 
some significant flooding, particularly in Houston's lift 
stations, too.
    Mr. Green. We have untold number of water districts outside 
the city limits of Houston or Pasadena and I know they--because 
they are built on the bayou close to where they're--they treat 
the effluent and it goes--they have permits to go into the 
bayous.
    Do you have any idea on how many of those were also 
impacted?
    Mr. Howe. I don't have specific numbers. The difficulty 
for--in our response during Hurricane Harvey, obviously, was 
that there was a delayed response. No one could do an 
assessment until the flood waters went down.
    Many of those operations were, obviously, shut down when 
the flooding started but it doesn't mean there wasn't a 
pollutant. I don't have specific numbers, though.
    Mr. Green. OK. Well, I have the eastern part of the county 
and, like I say, I could give you the watersheds from the 
bayous and--but Buffalo Bayou and the shipping port of Houston 
actually runs right in the middle of our district, and whether 
it be Brays or Sims, Sims Bayou looked like it was the one that 
didn't flood as bad as Brays and on the north side I have 
Greens Bayou, Carpenters Bayou in channel view, Hunting Bayou 
and----
    Mr. Howe. I grew up in Houston. I am familiar with all 
these.
    Mr. Green. And all of them were and these were multiple 
flooding experiences and we continue to work with the Corps of 
Engineers and, of course, our Harris County Flood Control 
District--that a lot of our neighboring counties don't have 
flood control districts but in Harris County we pay property 
taxes to be able to have drainage ditches and, you know, take 
care of our bayous along with the partnership with the Corps.
    So it is a big challenge. Your--Mr. Howe, in your testimony 
you said that the City of Houston was overwhelmed. What part of 
the city did they--did they shut down the wastewater system or 
did----
    Mr. Howe. It is my understanding----
    Mr. Green [continuing]. What part of the city was impacted?
    Mr. Howe. Excuse me. I am sorry.
    On the west side of Houston they did have one of their 
wastewater plants completely flooded out. It was out of 
service. They were advising people not to flush, those who were 
still in their residences, and they were--they had the 
resources to get that plant back online in three or four days, 
once the water--the water receded.
    You know, as you may be familiar, most of Houston's 
wastewater system is with forced mains or lift stations and 
they have a significant number of those and I know a number of 
those were flooded out.
    Houston proper was pretty resilient and a lot of that, much 
like some of the other cities around there. So I don't have 
specific details as to how they came back but they were very 
resilient on their own.
    Since Hurricane Ike they have built up a lot of resiliency 
within the City of Houston.
    Mr. Green. Well, in Harris County also many years ago, 
because you recognize we were subsiding, the City of Houston is 
now almost totally on surface water and they have surface water 
rights.
    I know Pasadena I represent complains about having to pay 
high water rates for the City of Houston.
    So we have a central location for surface water so we don't 
continue to subside. Do you think there is--should be an effort 
to try and create mega wastewater treatment facilities and 
partner with an untold number of water districts that we have 
and see how that would work?
    Mr. Howe. You know, obviously, sir, that is a local 
decision. The first thing, when you said it, that popped in my 
head was the--an example of the Trinity River Authority in the 
Dallas-Fort Worth area, which is a mega wastewater operation 
without regard to issue.
    You know, most of Houston's water comes from the discharge 
in the Trinity River from TRA. That might be a possibility. I 
mean, there are any number of small package plants in the muds 
that you spoke of outside of the Houston area.
    There might be an effort to look at consolidating those in 
a system that would be more efficient. There are enormous costs 
involved in doing that and getting to that, you know, rerouting 
sewer lines and everything else. But it is those sort of 
options I think everybody needs to look at.
    Mr. Green. Well, and I am already over time, but with the 
amount of money we are going to have to do to redo those plants 
and also the houses and the businesses downstream who are in 
danger of, you know, because of that effluent being in their 
houses and their--in their businesses.
    So thank you, Mr. Chairman.
    Mr. Shimkus. I thank my colleague.
    I want to thank the colleagues who stayed and participated 
in the second panel. I personally really appreciate it. An 
observation is that these disasters that we are talking about 
in this event, if you noticed--for the panelists, those of us 
who have been through them really kind of the same type of 
story.
    I do think there is an opportunity for us to work 
collectively and look at the Stafford Act. This is 
multijurisdictional, though. This would be a long-term, 5, 6 
years trying to get a response.
    You know, I keep thinking about big piles of stuff and how 
do you separate them. I am a big trash energy guy. I would like 
to see more of that. We have some locally that I have toured.
    Buy-out programs--we just had a flood 5 years ago. People 
are just getting their checks now. So there is a lot of ways 
these things can be fixed so we do appreciate your testimony.
    I also want to tell my--to the committee that we have five 
legislative days to submit opening statements. I forgot to do 
that at the beginning of this.
    I want to thank you all for being here and pursuant to 
committee rules, I remind Members that they have 10 business 
days to submit additional questions for the record.
    If you get those, if you would reply we would appreciate it 
and I ask that you submit your responses within 10 business 
days upon receipt of the questions.
    Of course, if your--can't use your electric stuff because 
you are in a place where there is no electricity that might be 
a challenge. But we do appreciate you being here. There is a 
lot of work for us to do.
    Thank you for your time, and with that, I will adjourn the 
hearing.
    [Whereupon, at 12:56 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
